<html>
<title> - CYBER SECURITY EDUCATION: MEETING THE NEEDS OF TECHNOLOGY WORKERS AND EMPLOYERS</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



                       CYBER SECURITY EDUCATION:
                          MEETING THE NEEDS OF
                    TECHNOLOGY WORKERS AND EMPLOYERS

=======================================================================

                                HEARING

                               BEFORE THE

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 21, 2004

                               __________

                           Serial No. 108-68

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science


                    U.S. GOVERNMENT PRINTING OFFICE
94-834                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                                 ______

                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
RALPH M. HALL, Texas                 BART GORDON, Tennessee
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois
CURT WELDON, Pennsylvania            EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         LYNN C. WOOLSEY, California
KEN CALVERT, California              NICK LAMPSON, Texas
NICK SMITH, Michigan                 JOHN B. LARSON, Connecticut
ROSCOE G. BARTLETT, Maryland         MARK UDALL, Colorado
VERNON J. EHLERS, Michigan           DAVID WU, Oregon
GIL GUTKNECHT, Minnesota             MICHAEL M. HONDA, California
GEORGE R. NETHERCUTT, JR.,           BRAD MILLER, North Carolina
    Washington                       LINCOLN DAVIS, Tennessee
FRANK D. LUCAS, Oklahoma             SHEILA JACKSON LEE, Texas
JUDY BIGGERT, Illinois               ZOE LOFGREN, California
WAYNE T. GILCHREST, Maryland         BRAD SHERMAN, California
W. TODD AKIN, Missouri               BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         DENNIS MOORE, Kansas
MELISSA A. HART, Pennsylvania        ANTHONY D. WEINER, New York
J. RANDY FORBES, Virginia            JIM MATHESON, Utah
PHIL GINGREY, Georgia                DENNIS A. CARDOZA, California
ROB BISHOP, Utah                     VACANCY
MICHAEL C. BURGESS, Texas            VACANCY
JO BONNER, Alabama                   VACANCY
TOM FEENEY, Florida
RANDY NEUGEBAUER, Texas
VACANCY


                            C O N T E N T S

                             July 21, 2004

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Sherwood L. Boehlert, Chairman, 
  Committee on Science, U.S. House of Representatives............    13
    Written Statement............................................    14

Statement by Representative Bart Gordon, Minority Ranking Member, 
  Committee on Science, U.S. House of Representatives............    14
    Written Statement............................................    15

Prepared Statement by Representative Nick Smith, Member, 
  Committee on Science, U.S. House of Representatives............    15

                               Witnesses:

Mr. Chester ``Chet'' Hosmer, President & CEO, WetStone 
  Technologies, Inc.
    Oral Statement...............................................    17
    Written Statement............................................    19
    Biography....................................................    23
    Financial Disclosure.........................................    25

Mr. John R. Baker, Sr., Director, Technology Programs, Division 
  of Undergraduate Education, School of Professional Studies in 
  Business and Education, Johns Hopkins University
    Oral Statement...............................................    25
    Written Statement............................................    27
    Biography....................................................    32
    Financial Disclosure.........................................    36

Mr. Erich J. Spengler, Principal Investigator, Advanced 
  Technology Education Regional Center for the Advancement of 
  Systems Security and Information Assurance, Moraine Valley 
  Community College
    Oral Statement...............................................    37
    Written Statement............................................    38
    Biography....................................................    42
    Financial Disclosure.........................................    42

Second Lieutenant David J. Aparicio, Developmental Electrical 
  Engineer, Information Directorate, Air Force Research 
  Laboratory
    Oral Statement...............................................    43
    Written Statement............................................    45
    Biography....................................................    47
    Financial Disclosure.........................................    47

Ms. Sydney Rogers, Principal Investigator, Advanced Technology 
  Education Regional Center for Information Technology, Nashville 
  State Community College
    Oral Statement...............................................    48
    Written Statement............................................    51
    Biography....................................................    66
    Financial Disclosure.........................................    67

Discussion.......................................................    67

              Appendix: Answers to Post-Hearing Questions

Mr. Chester ``Chet'' Hosmer, President & CEO, WetStone 
  Technologies, Inc..............................................    82

Mr. John R. Baker, Sr., Director, Technology Programs, Division 
  of Undergraduate Education, School of Professional Studies in 
  Business and Education, Johns Hopkins University...............    83

Mr. Erich J. Spengler, Principal Investigator, Advanced 
  Technology Education Regional Center for the Advancement of 
  Systems Security and Information Assurance, Moraine Valley 
  Community College..............................................    85

Ms. Sydney Rogers, Principal Investigator, Advanced Technology 
  Education Regional Center for Information Technology, Nashville 
  State Community College........................................    88

 
 CYBER SECURITY EDUCATION: MEETING THE NEEDS OF TECHNOLOGY WORKERS AND 
                               EMPLOYERS

                              ----------                              


                        WEDNESDAY, JULY 21, 2004

                  House of Representatives,
                                      Committee on Science,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Sherwood L. 
Boehlert (Chairman of the Committee) presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                       Cyber Security Education:

                          Meeting the Needs of

                    Technology Workers and Employers

                        wednesday, july 21, 2004
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

1. Purpose

    On Wednesday, July 21, 2004, the House Committee on Science will 
conduct a hearing to review efforts by academia, industry and 
government to develop a cyber security workforce.

2. Witnesses

Mr. Chet Hosmer is the President & CEO of WetStone Technologies, Inc. 
of Cortland, New York. Mr. Hosmer has taught Network Security and 
Cyber-Crime and Computer Forensic courses at Utica College, and he is 
the Research Advisor for the Computer Forensics Research and 
Development Center of Utica College. Mr. Hosmer also is Co-chair of the 
Electronic Crime and Terrorism Partnership Initiative's Technology 
Working Group at the National Institute of Justice.

Mr. John Baker is the Director of Technology Programs for the Division 
of Undergraduate Education of the School of Professional Studies in 
Business and Education at the Johns Hopkins University in Baltimore, 
Maryland.

Mr. Erich Spengler is the head of the Regional Center for the 
Advancement of Systems Security and Information Assurance at Moraine 
Valley Community College in Palos Hills, Illinois.

Second Lieutenant David Aparicio is an electrical engineer for the Air 
Force Research Laboratory Information Directorate in Rome, New York. 
Lt. Aparacio is a graduate of the ``Cyber Security Boot Camp'' run 
jointly by the Air Force, Syracuse University, the New York State 
Office of Science, Technology and Academic Research.

Ms. Sydney Rogers is the head of the Regional Center for Information 
Technology at Nashville State Community College in Nashville, 
Tennessee. Ms. Rogers is also the Vice President for Community and 
Economic Development at the community college and her responsibilities 
include workforce development, computer services and distance 
education.

3. Overarching Questions

    The hearing will address the following overarching questions:

        <bullet>  How are academia, industry and government working 
        together to meet the Nation's cyber security education and 
        training needs?

        <bullet>  What are the strengths and weaknesses of existing 
        cyber security education and training programs?

        <bullet>  What new and emerging challenges need to be addressed 
        in this area? How can the Federal Government contribute to this 
        effort?

4. Brief Overview

        <bullet>  Information technology systems play a critical role 
        in today's economy, yet they are vulnerable to security 
        breaches and attacks. Adequately protecting these systems 
        requires, among other things, a well-trained cyber security 
        workforce to block, detect and counter any threats to vital 
        computer systems and networks.

        <bullet>  In 2002, the President signed into law the Cyber 
        Security Research and Development Act (P.L. 107-305), which 
        originated in the Science Committee. The Act effectively 
        designated the National Science Foundation (NSF) as the lead 
        agency for civilian cyber security research and education, and 
        it authorized $216 million over FY 2003-FY 2007 for NSF cyber 
        security education and training programs. The Act also 
        authorized advanced cyber security education and training 
        programs at the National Institute of Standards and Technology 
        (NIST), but these programs have never been funded.

        <bullet>  The National Security Agency (NSA) also is engaged in 
        cyber security education and training. In addition, the 
        Department of Homeland Security (DHS) supports public awareness 
        and outreach on cyber security vulnerabilities and 
        countermeasures, and it helps coordinate private-sector efforts 
        with those of the Federal Government.

        <bullet>  As the challenges of cyber security emerge and 
        evolve, so too do the courses and programs of cyber security 
        education and training. From programs in traditional settings, 
        like two- and four-year colleges and universities, to other 
        programs, like the Cyber Security Boot Camp, the cyber security 
        education and training continuum is growing and becoming more 
        standardized in its effort to meet the needs of technology 
        workers and employers.

5. Background

    Estimates of annual economic losses caused by computer virus and 
worm attacks and to hostile digital acts in general run from about $13 
billion (worms and viruses only) to $226 billion (for all forms of 
overt attacks). While the precise figures are open to question, there 
is no doubt that cyber security intrusions result in significant losses 
due to downtime, lost productivity, and expenses related to testing, 
cleaning and deploying patches to computer systems.
    Experts increasingly point out that improving cyber security 
requires cyber security training for technicians and users, in addition 
to promulgating sound security practices and deploying sophisticated 
technology. As one security professional explained, you can be 
``bristling with firewalls and IDS (intrusion detection systems), but 
if a naive user ushers an attacker in through the back door, you have 
wasted your money.''
Education and Training Needs
    Many system failures and security breaches occur because of human 
error. Employees may fail to install a patch, or configure a firewall 
incorrectly, or otherwise leave a system open to intrusion. Such errors 
occur, in part, because responsibility for security traditionally has 
fallen to non-security workers who may lack the time, training and 
focus to handle such responsibilities.
    A 2002 report by the National Workforce Center for Emerging 
Technologies and the Computing Technology Industry Association 
(CompTIA) found that many security organizations were beginning to seek 
security professionals, deciding that it was no longer acceptable just 
to buy a firewall package, install it, and let it run.
    Industry is also increasingly interested in fostering concern with 
cyber security at all the levels of the workforce dealing with 
computers from administrative workers (such as network administrators, 
technicians, and help desk staff) to engineers (including software 
developers) to system architects.
    Responding to that interest, cyber security education and training 
is increasingly being offered through degree-granting programs at both 
two- and four-year colleges and universities, but also through shorter, 
credit and non-credit programs that provide certificates or provide 
background for students to pass certification exams.

Federal Support for Cyber Security Education and Training
            National Science Foundation
    Federal Cyber Service: Scholarship for Service (SFS)--The program 
has two aspects--a ``Scholarship Track'' that provides grants to 
colleges and universities for student stipends, and a ``Capacity-
Building Track'' that provides grants to colleges and universities to 
improve their ability to provide courses in cyber security.
    The Scholarship Track provides four-year grants to colleges and 
universities, which, in turn, use the money to provide as many as 30 
two-year scholarships. In exchange for two years of stipends ($8,000 
per year for undergraduate students and $12,000 for graduate students) 
and a summer internship at a federal agency, participating students are 
required to work for two years in the Federal Cyber Service for a 
federal agency. Since 2001, 391 individuals have participated in the 
scholarship program.
    The Capacity Building Track provides two-year grants of up to 
$150,000 per year for such activities as adapting and implementing the 
use of educational materials, courses or curricula; offering technical 
experience; developing laboratories, and offering faculty development 
programs. (An additional $150,000 per year is available to partnerships 
that include minority serving institutions.)
    The SFS program was funded at $16.1 million in Fiscal Year (FY) 
2004, and the Administration request for FY 2005 is $16.2 million. A 
list of colleges and universities participating in the SFS program is 
provided in Appendix II.
    Advanced Technology Education (ATE)--ATE is NSF's program to 
improve technical education at two-year colleges. Grant awards may 
involve partnerships between two-year and four-year institutions.
    One aspect of ATE is the funding of regional centers (such as the 
two giving testimony at this hearing), which are designed to create 
model programs in specific areas, such as cyber security, to adapt 
those programs to local needs, provide professional development for 
college faculty, and help recruit, retain and place students.
    The ATE program, which received $45.23 million in FY 2004, of which 
about $3.7 million will be invested in cyber security education and 
training (although the breakdown for cyber security is a very rough 
estimate).

            National Security Agency
    The National Security Agency (NSA) established the Centers of 
Academic Excellence in Information Assurance Education (CAE/IAE) 
Program in 1998 to increase the number of professionals with 
information assurance expertise in various disciplines. The CAE/IAE 
Program endorses qualified four-year and graduate information assurance 
degree programs (including those at Johns Hopkins, which is testifying 
at this hearing).\1\ Currently, there are 59 universities in 27 states 
that are designated as CAE/IAE (see list in Appendix III). Being 
designated a CAE/IAE does not guarantee an institution funding, but it 
is a ``seal of approval'' that facilitates applying to grant programs, 
and it makes institutions eligible for certain NSA programs.\2\
---------------------------------------------------------------------------
    \1\ Prospective institutions must meet rigorous standards to 
receive the national recognition and the CAE/IAE designation, including 
courseware that is certified under the National Security 
Telecommunications and Information Systems Security Standards as well 
as ten other criteria describing dimensions, depth and maturity of the 
information assurance program.
    \2\ NSA competitively awards a small amount of funding (a few 
million dollars) for capacity building--curriculum development, 
purchase of infrastructure for courses--at CAE/IAE schools.
---------------------------------------------------------------------------
    NSA also manages an SFS program in information assurance for the 
Department of Defense (DOD). This program is similar to the one run by 
NSF, with scholarships provided for study at a CAE/IAE in return for a 
student's service at a DOD agency. Currently 82 students are 
participating in the NSA SFS program.

            Department of Homeland Security
    The Department of Homeland Security (DHS) is working to increase 
cyber security awareness, foster cyber security training and education 
programs, and promote private sector support for well-coordinated, 
widely recognized professional cyber security certifications. In these 
areas, DHS plays a supporting role, consulting on the efforts and 
programs underway in other government agencies, at universities, and in 
the private sector.

6. Witness Questions

Questions for Mr. Hosmer

        <bullet>  In your experience, what knowledge and skills are 
        currently needed in the cyber security workforce? Have cyber 
        security education and training programs been sufficiently 
        flexible to respond to these needs as well as the needs of 
        traditional and returning students?

        <bullet>  What are the current strengths and weaknesses in 
        cyber security education and training programs? Do model 
        programs exist and, if they do, are they being adapted to meet 
        local cyber security needs?

        <bullet>  What partnerships should two-year and four-year 
        colleges and universities forge with business and industry to 
        build appropriate programs? In your opinion, is there 
        sufficient collaboration with industry at the administration 
        (advisory committees), faculty (return-to-industry) and student 
        (internship) levels to accommodate rapid changes in these 
        professional and technical areas?

        <bullet>  What can the Federal Government do to improve cyber 
        security education and build the Nation's technical workforce?

Questions for Mr. Baker

        <bullet>  What are the various levels of cyber security 
        education and training, e.g., systems administration, systems 
        engineering, and systems architecture? What role does your 
        university play in this education and training continuum? How 
        do two- and four-year colleges and institutions collaborate--if 
        at all--to identify and fill cyber security educational needs?

        <bullet>  What are the current strengths and weaknesses of 
        cyber security education and training programs? What courses 
        and programs currently exist? And what programs need to be 
        developed and more broadly implemented?

        <bullet>  What are the challenges to faculty preparation, 
        recruitment and retention in cyber security? How has your 
        university attempted to address these challenges?

        <bullet>  What can the Federal Government do to improve cyber 
        security education and build the Nation's technical workforce?

Questions for Mr. Spengler

        <bullet>  What role do community colleges play in the training 
        of new workers and the retraining of current workers? What 
        employment opportunities in cyber security are available for 
        individuals with a certificate or a two-year degree?

        <bullet>  What are the current strengths and weaknesses of 
        cyber security education and training programs? What ``model'' 
        courses and programs currently exist? And what types of courses 
        or programs need to be developed or more broadly implemented?

        <bullet>  What are the challenges do you face in recruiting and 
        training cyber security faculty? What type of programs or 
        opportunities do you provide to help keep faculty current?

        <bullet>  What can the Federal Government do to improve cyber 
        security education and build the Nation's technical workforce?

Questions for Lt. Aparicio

        <bullet>  How did your experience at the ACE change your view 
        of cyber security issues? Is this a good way to recruit 
        engineering and other science and technology students into the 
        field? How did your experience in the course influence your 
        career plans?

        <bullet>  Do you think that the combination of education, 
        problem solving and immersion is an effective model for other 
        education and training programs? Why or why not?

        <bullet>  In your opinion, what can the Federal Government do 
        to improve cyber security education and build the Nation's 
        technical workforce?

Questions for Ms. Rogers

        <bullet>  What role do community colleges play in the training 
        of new workers and the retraining of current workers? What 
        employment opportunities in cyber security are available for 
        individuals with a certificate or a two-year degree?

        <bullet>  What are the current strengths and weaknesses of 
        cyber security education and training programs? What ``model'' 
        courses and programs currently exist? And what types of courses 
        or programs need to be developed or more broadly implemented?

        <bullet>  What are the challenges do you face in recruiting and 
        training cyber security faculty? What type of programs or 
        opportunities do you provide to help keep faculty current?

        <bullet>  What can the Federal Government do to improve cyber 
        security education and build the Nation's technical workforce?

Appendix I: NSF ATE Award Abstracts

        Tennessee Information Technology (TN IT) Exchange Center

Start Date: September 15, 2002

Expires: August 31, 2005 (Estimated)

Expected Total Amount: $1,798,803 (Estimated)

Investigator:  Sydney U. Rogers <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8af9f3eee4eff3a4f8e5edeff8f9cae4f9e9e9a4efeeff">[email&#160;protected]</a> (Principal 
Investigator current))

Sponsor:  Nashville St Tech Community College, 120 White Bridge Rd., 
Nashville, TN 37209-4515; 615/353--3236

    The Tennessee Information Technology (IT) Exchange Center provides 
an effective workforce capacity building system by increasing the IT 
educational strength in a consortium of two year colleges, four year 
colleges, secondary schools and industries in North Central Tennessee. 
The goal is to develop a sustainable Center to meet the needs of 
industry for a qualified IT workforce by creating real world scenarios 
based on industrial needs and using them as the basis for instruction 
in IT courses. The learning strategies are developed in workshops at 
the Center for Learning and Teaching at Vanderbilt University. The 
cases are used in high school academies to interest high school 
students in IT careers. A web site provides information about the 
availability and content of education and training programs in the 
region, a clearinghouse of job opportunities and regular communications 
among partners. Regional stakeholder forums bring industry and 
educators together to develop a shared vision based upon research for 
effective delivery of instruction. The audience includes both students 
in educational institutions and re-careering workers.

    Center for the Advancement of Systems Security and Information 
                           Assurance (CASSIA)

Start Date: September 1, 2003

Expires: August 31, 2007 (Estimated)

Expected Total Amount: $2,997,615 (Estimated)

Investigator:  Erich Spengler <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ea999a8f848d868f98aa8785988b83848f9c8b86868f93c48f8e9f">[email&#160;protected]</a> (Principal 
Investigator current)

Sponsor:  Moraine Valley Community College, 10900 South 88th Avenue, 
Palos Hills, IL 60465-2175; 708/974-4300

    This regional center for information technology (IT) security and 
data assurance serves a five-state area of the Midwest and focuses on a 
field which is critical to homeland security and which has a large 
demand for qualified workers. The center builds on a previous Advanced 
Technological Education project at Moraine Valley Community College, 
``Applied Internet Technology: Curriculum and Careers'' (NSF Award No. 
9950037; see http://www.fastlane.nsf.gov/servlet/
showaward?award=9950037 and http://www.morainevalley.edu/nsf/), which 
concluded in 2002. The following educational institutions are 
collaborating in the operation of the center: Moraine Valley Community 
College, Rock Valley College, University of Illinois at Springfield, 
Lakeland Community College, Washtenaw Community College, Inver Hills 
Community College, and Madison Area Technical College. Other 
organizations from business, industry, and government are also advising 
the center and participating in its activities.
    The center is collecting, adapting, and enhancing curricula in 
cyber security, offering certificate and degree programs, and providing 
professional development for college faculty in the region. In 
particular, the center is establishing an A.A.S. degree and a 
certificate in IT security and data assurance; a concentration in IT 
security and data assurance within a B.S. degree program in computer 
science; an Internet-accessible laboratory environment that 
demonstrates and simulates security technologies; ``train the trainer'' 
summer workshops and externship opportunities for faculty from regional 
community colleges and four-year institutions; an internship program 
for students in the A.A.S. and B.S. degree programs; and a 
comprehensive outreach and support program to increase the number of 
students from under-represented groups who pursue IT careers.

Appendix II. Institutions Involved in NSF's Cyber Security Scholarships 
                    for Service Program

Institutions with Students in NSF's Cyber Security Scholarships for 
        Service Program\3\
---------------------------------------------------------------------------
    \3\ NSF does not directly fund students in the Scholarships for 
Service program. Instead, funding is provided to institutions who 
select the scholarship recipients.

---------------------------------------------------------------------------
Carnegie Mellon University

Clark Atlanta University

Florida State University

George Washington University

Georgia Institute of Technology

Idaho State University

Iowa State University

Jackson State University

Johns Hopkins University

Morehouse College

Mississippi State University

Naval Postgraduate School

New Mexico Institute of Mining & Technology

Norwich University

Polytechnic University

Purdue University

Spelman College

SUNY at Stony Brook

Syracuse University

University of Idaho

University of Nebraska at Omaha

University of North Carolina at Charlotte

North Carolina A&T University

University of Tulsa

Institutions Receiving Capacity Building Grants via NSF's Cyber 
        Security Scholarships for Service Program

Adelphi University

Amherst College

California State at Long Beach

Carnegie Mellon University

Clark Atlanta University

CUNY Brooklyn

CUNY Borough of Manhattan Community College

CUNY NYC College of Technology

Embry Riddle Aeronautical University

Florida Agricultural and Mechanical University

Florida State University

George Washington University

Georgia Institute of Technology

Hampshire College

Indiana University of Pennsylvania

Illinois Institute of Technology

Indiana University

Iowa State University

Jackson State University

John Jay College of Criminal Justice

Kentucky State University

Mississippi State University

Mount Holyoke College

Murray State University

Naval Postgraduate School

New Mexico Institute of Mining and Technology

North Carolina Agricultural and Technical State University

North Dakota State University at Fargo

Pennsylvania State University

Polytechnic University

Purdue University

Smith College

Stevens Institute of Technology

SUNY Albany

SUNY at Stony Brook

Texas A&M

University of Alaska-Fairbanks

University of Denver

University of Houston

University of Idaho

University of Kansas

University of Louisville Research Foundation

University of Massachusetts at Amherst

University of Missouri

University of North Carolina at Charlotte

University of Pittsburgh

University of Rhode Island

University of Southern California

University of South Carolina at Columbia

University of Washington

University of Wisconsin-Stevens Point

University of Wisconsin-Parkside

University of Wisconsin-Milwaukee

Towson University

Utica College

Wichita State University

Appendix III: NSA Centers of Academic Excellence in Information 
                    Assurance Education

Alabama

Auburn University
California

Naval Postgraduate School

Stanford University

University of California at Davis
Florida

Florida State University
Georgia

Georgia Institute of Technology

Kennesaw State University
Idaho

Idaho State University

University of Idaho
Illinois

University of Illinois at Urbana-Champaign
Indiana

Purdue University
Iowa

Iowa State University
Maryland

Capitol College

Johns Hopkins University

Towson University

University of Maryland, Baltimore County

University of Maryland University College
Massachusetts

Boston University

Northeastern University

University of Massachusetts, Amherst
Michigan

University of Detroit, Mercy

Walsh College
Mississippi

Mississippi State University
Nebraska

University of Nebraska at Omaha
New Jersey

New Jersey Institute of Technology

Stevens Institute of Technology
New Mexico

New Mexico Tech
New York

Pace University

Polytechnic

State University of New York, Buffalo

State University of New York, Stony Brook

Syracuse University

U.S. Military Academy, West Point
North Carolina

North Carolina State University

University of North Carolina, Charlotte
Ohio

Air Force Institute of Technology
Oklahoma

University of Tulsa
Oregon

Portland State University
Pennsylvania

Carnegie Mellon University

Drexel University

East Stroudsburg University

Indiana University of Pennsylvania

Pennsylvania State University

University of Pennsylvania

University of Pittsburgh

West Chester University of Pennsylvania
South Dakota

Dakota State University
Texas

Texas A&M University

University of Dallas

University of North Texas

University of Texas, Dallas

University of Texas, San Antonio
Vermont

Norwich University
Virginia

George Mason University

James Madison University

University of Virginia
Washington

University of Washington
Washington, D.C.

George Washington University

Information Resources Management College
    Chairman Boehlert. The hearing will come to order. Let me 
explain to our witnesses that both parties had morning 
conferences, party conferences, and they were running a little 
bit later than expected, so the Committee is more important 
than the party, and that is why Mr. Gordon and I are here to 
welcome you.
    It is a pleasure to welcome everyone here this morning for 
a hearing on cyber security, a subject that has consumed the 
Committee over the past couple of years. We have focused on 
this topic for good reason. Information and communication 
systems underpin our government, and they ensure the smooth 
functioning of our industries, financial institutions, and 
transportation systems. They touch nearly every aspect of our 
lives, but they are fragile, vulnerable to intrusions and 
attacks.
    We continue to focus on new tools to prevent devastating 
attacks, and we will undoubtedly revisit the federal investment 
in cyber security research and development in the future, the 
very near future. But today, we will focus on another cyber 
security challenge, the education and training of a cadre of 
professionals in computer security and information assurance.
    As the cost of security breaches rise and attacks increase 
in frequency and sophistication, business and industry are 
recognizing the need to invest in technology as well as 
training. And education and training programs are springing up 
to meet that need. Some of these programs, including those that 
will be discussed here today, are particularly innovative. But 
the field of cyber security education and training is still 
developing. You might say it is in its infancy, and we need to 
see that it goes to full maturity. We need to learn how to help 
our colleges and universities respond rapidly and intelligently 
to a field that continues to evolve. We need to identify ways 
to attract and retain skilled faculty, and we need to work with 
higher education institutions, businesses, and other 
organizations to ensure that education and training courses and 
programs translate into employment.
    If I might give a parenthetical thought for a minute, I am 
a senior Member on the House Committee on Intelligence, and we 
are on the eve of the report of the 9/11 Commission. And that 
report will emphasize something that we are going to emphasize 
here today: the importance of the investment in human capital.
    A few years ago, a friend summed up the challenges of cyber 
security in this way: ``New technologies and enhanced security 
practices are like sun screen: they offer you some protection, 
but sooner or later, you are going to get burned.'' By 
increasing the quality and quantity of cyber security education 
and training programs, a new generation of technicians and 
technology professionals can enhance the SPF of our information 
and communication systems and create a more secure future. And 
that would provide a very sunny outlook, indeed.
    Chairman Boehlert. With that, let me recognize the 
distinguished gentleman from Tennessee, the Ranking Member, Mr. 
Gordon.
    [The prepared statement of Chairman Boehlert follows:]

            Prepared Statement of Chairman Sherwood Boehlert

    It is a pleasure to welcome everyone here this morning for a 
hearing on cyber security--a subject that has consumed the Committee 
over the past couple of years.
    We have focused on this topic for good reason. Information and 
communication systems underpin our government and they ensure the 
smooth functioning of our industries, financial institutions and 
transportation systems. They touch nearly every aspect of our lives, 
but they are fragile, vulnerable to intrusions and attacks.
    We continue to focus on new tools to prevent devastating attacks--
and we will undoubtedly revisit the federal investment in cyber 
security research and development in the future--but today we will 
focus on another cyber security challenge: the education and training 
of a cadre of professionals in computer security and information 
assurance.
    As the costs of security breaches rise and attacks increase in 
frequency and sophistication, business and industry are recognizing the 
need to invest in technology as well as training. And education and 
training programs are springing up to meet that need.
    Some of these programs, including those represented here today, are 
particularly innovative, but the field of cyber security education and 
training is still developing. We need to learn how to help our colleges 
and universities respond rapidly and intelligently to a field that 
continues to evolve. We need to identify ways to attract and retain a 
skilled faculty. And we need to work with higher education 
institutions, businesses and other organizations to ensure that 
education and training courses and programs translate into employment.
    A few years ago, a friend summed up the challenges of cyber 
security in this way: New technologies and enhanced security practices 
are like sun screen. They offer you some protection but, sooner or 
later, you are going to get burned. By increasing the quality and 
quantity of cyber security education and training programs, a new 
generation of technicians and technology professionals can enhance the 
SPF of our information and communication systems and create more secure 
future.
    And that would provide a very sunny outlook indeed.
    Mr. Gordon.

    Mr. Gordon. Thank you, Mr. Chairman.
    I am pleased to join you in welcoming our witnesses to this 
hearing on efforts to improve education and training of cyber 
security professionals. The President's strategy for security 
in cyberspace highlighted that a lack of trained personnel and 
inadequate certification programs for security professionals is 
complicating the task of reducing the vulnerabilities of the 
Nation's network information systems. This committee also 
recognized the problem and attempted to address it in the Cyber 
Security R&D Act, which was enacted during the last Congress.
    In addition to new research programs at NSF and NIST, it 
authorized educational programs at NSF to improve cyber 
security education at undergraduate institutions, including 
two-year colleges. These are the education programs that 
produce the computer and network specialists who are 
responsible for ensuring that cyber systems are operating 
safely and reliably.
    Today, the Committee will get a progress report on these 
NSF programs from those in the field who are carrying them out. 
We also hope to gain a better understanding of the overall 
state of cyber security education and training. I am interested 
in whether the federally-sponsored education and training 
programs are focused on industry's requirements, are meeting 
the demand that exists for cyber security professionals, and 
receiving funding that is adequate to ensure that the programs 
are effective and of sufficient size to meet the need.
    Again, I want to welcome the witnesses today and look 
forward to our discussion.
    [The prepared statement of Mr. Gordon follows:]

            Prepared Statement of Representative Bart Gordon

    Mr. Chairman, I am pleased to join you in welcoming our witnesses 
to this hearing on efforts to improve the education and training of 
cyber security professionals.
    The President's Strategy to Secure Cyberspace highlighted that a 
lack of trained personnel and inadequate certification programs for 
security professionals is complicating the task of reducing the 
vulnerabilities of the Nation's networked information systems.
    This committee also recognized the problem and attempted to address 
it in the Cyber Security R&D Act, which was enacted during the last 
Congress.
    In addition to new research programs at NSF and NIST, the Act 
authorized education programs at NSF to improve cyber security 
education at undergraduate institutions, including two-year colleges. 
These are the education programs that produce the computer and network 
specialists who are responsible for ensuring that cyber systems are 
operated safely and reliably.
    Today the Committee will get a progress report on these NSF 
programs from those in the field who are carrying them out. We also 
hope to gain a better understanding of the overall state of cyber 
security education and training.
    I am interested in whether the federally sponsored education and 
training programs are focused on industry's requirements, are meeting 
the demand that exists for cyber security professionals, and are 
receiving funding that is adequate to ensure the programs are effective 
and of sufficient size to meet the need.
    Again, I want to welcome our witnesses today, and I look forward to 
our discussion.

    [The prepared statement of Mr. Smith follows:]

            Prepared Statement of Representative Nick Smith

    The type of computer systems that banks, universities, government, 
the military, and large corporations depend on, are immense and 
extremely complex. It saves time and money the more closely connected a 
system is internally, and to external systems that it needs to interact 
with. Because the usefulness of computer systems depends in large part 
on interconnectedness, they are vulnerable to outside ``hackers'' who 
can take advantage of the level of openness that the system must 
maintain in order to be effective. In addition to the threat of 
electronic attacks, we must not lose sight of the physical security of 
central servers.
    So the need for a highly trained cyber security workforce is 
obvious. And in some ways, the work that the Federal Government needs 
to do in this area is similar to what we are doing to ensure that we 
produce a sufficient number of workers with technical skills and a math 
and science background. A few examples of these similarities include 
supporting the development of innovative new strategies for exciting 
kids about math and science in K-12 schools, providing funding so that 
universities and community colleges can take the math and science 
talent developed in those K-12 schools and focus it towards specific 
areas of focus, and helping post-graduate programs attract and educate 
enough talented students to meet growing workforce needs.
    But it seems to me that training this workforce gives us a paradox 
similar to the one that developers of computer systems face in making 
sure that they are open enough to be effective, but not so open that 
hackers can take advantage of them. In order to defend a network it is 
necessary to know how it works and where its vulnerabilities lie. If we 
want to maintain a cyber security workforce large enough to meet 
growing need, this information needs to be made widely available. By 
facilitating this, we make it easy for someone with sinister intentions 
to obtain the training that he or she would need to wreak the kind of 
havoc that we are trying to prevent. As we move forward in the area of 
cyber security education, this is an issue that must be addressed.

    Chairman Boehlert. Thank you very much.
    And our witnesses today, a very distinguished list of 
witnesses, I want to thank you in advance for agreeing to be 
facilitators and educators for this committee. We take great 
pride in the quality of witnesses that are invited before this 
committee, and we also take great pride in the fact that more 
often than not we listen. It is easy for the elected officials 
like us to sit up here and pontificate and talk a lot, but we 
don't learn much when we are talking. We learn an awful lot 
when we hear from people like you. And it is a very diverse 
panel.
    Mr. Chet Hosmer, President and Chief Executive Officer for 
WetStone Technologies, Inc. in Cortland, New York. Mr. John 
Baker, Director, Technology Programs, Division of Undergraduate 
Education, School of Professional Studies in Business and 
Education, Johns Hopkins University. Mr. Erich Spengler, and 
for the purpose of an introduction, the Chair will recognize 
the distinguished Chair of the Subcommittee, Ms. Biggert.
    Ms. Biggert. Thank you, Mr. Chairman, for the opportunity 
to introduce Mr. Erich Spengler.
    With a Master's degree in Business from Loyola University, 
Mr. Spengler is the Director of the NSF Regional Center for the 
Advancement of Systems Security and Information Assurance at 
Moraine Valley Community College in Palos Hills, Illinois. 
While the school lies just outside my district, I am here today 
because Mr. Spengler is almost a constituent and because 
Moraine Valley truly is an educational asset to the entire 
Chicago land area, and I think that he is to be congratulated 
for all that he has accomplished at Moraine Valley and 
certainly has contributed and will contribute this morning to 
our discussion of cyber security education. And that is why it 
is my privilege to welcome Mr. Spengler to the hearing of the 
House Science Committee today.
    Thank you, Mr. Chairman.
    Chairman Boehlert. Our next witness is Second Lieutenant 
David Aparicio. Lieutenant, it is good to see you here. He has 
got an exciting story to tell. Lieutenant Aparicio is a 
graduate. As a matter of fact, he was the valedictorian of the 
Advanced Course in Engineering Cyber Security boot camp, and, 
boy, that is an interesting story, Mr. Gordon and my 
colleagues, I want you to hear about. And he is joined to his 
rear by Dr. Kamal Jabaar who is director of the cyber security 
boot camp. Doctor, it is good to have you here with us. And Mr. 
Aparicio, I can't resist the temptation. As you probably know, 
this weekend the most important event taking place any place in 
the world is taking place in my home district of New York. 
Cooperstown, the National Baseball Hall of Fame, it is the 
induction ceremony this weekend. A couple of greats from the 
past, Dennis Eckersley and Paul Molitor, are being inducted. 
But one of the popular inductees of many years ago was Louie 
Aparicio, and so I just want to say it is good to see another 
Aparicio here.
    And for the purpose of an introduction, the Chair 
recognizes Mr. Gordon.
    Mr. Gordon. Thank you, Mr. Chairman.
    It is my pleasure to introduce Ms. Sydney Rogers who is 
Vice President for Community and Economic Development at 
Tennessee State Technological Community College. I also want to 
welcome her as a fellow graduate of Middle Tennessee State 
University and thank her belatedly for voting for me for 
student body president some years back. Ms. Rogers is 
responsible for workforce development, student services, 
computer services, and grants, and development at Nashville 
State Technical Community College. Previously, she served as 
interim Vice President for Academic Affairs, Dean of 
Technologies, and Department Chair and Associate Professor for 
Computer Information Systems for 20 years. Of particular 
interest for today's hearing, Ms. Rogers is the lead principal 
investigator for the Center for Information Technology 
Education, a regional center funded by the National Science 
Foundation Advanced Technology Education Program. Her work has 
focused on the reform of technological education to create a 
more adaptable workforce suited for the new century. Ms. Rogers 
serves on three NSF national visiting committees and several 
local Boards and has 30 years of leadership experience in 
technology education and workforce development.
    Once again, welcome to our committee.
    Chairman Boehlert. Thank you very much, Mr. President.
    And now the witnesses. And the general rule in the 
Committee is that we ask that you summarize your opening 
statement, which will be made part of--the full opening 
statement, part of the official record in its entirety. But we 
ask for the summary in five minutes or so, and the Chair is 
never arbitrary, because in addition to the very distinguished 
witnesses we have today, we are used to hearing from Nobel 
Laureates and astronauts and I can't help but recall yesterday 
was the 35th anniversary of the Apollo 11 Moon landing. We have 
had Neil Armstrong, with whom I had a good conversation last 
night, and Buzz Aldrin. And so to have people travel from afar 
and offer expert testimony, it seems to me sometimes almost 
sinful that we ask you to summarize in 300 seconds or less. But 
while the clock will be on, and at four minutes it will--the 
little sign there will be yellow and in five minutes, it will 
go red, don't stop mid-sentence, mid-thought, mid-paragraph. 
Continue on. There will be some leeway, and then there will be 
opportunity for questions.
    With that, Mr. Hosmer, it is a pleasure to welcome you 
here.

 STATEMENT OF MR. CHESTER ``CHET'' HOSMER, PRESIDENT AND CEO, 
                  WETSTONE TECHNOLOGIES, INC.

    Mr. Hosmer. Thank you, Mr. Chairman and Members of the 
Committee, for the opportunity to speak with you today on a 
topic that is very, very important to me personally and to our 
company.
    For many years now, since 1998, we have been involved in 
cyber security research and development at WetStone 
Technologies, and a critical part of that process has been the 
integration of and cooperation between many colleges and 
universities throughout our great State of New York. 
Congressman Boehlert, the Chairman, and myself, actually, are 
both alum of Utica College of Syracuse University. And that 
program in economic crime investigation that was started there 
back in 1988 is one of the oldest in the country in this 
particular area. And it was at a time where it took great 
vision in order to be able to create a program in an area 
where, at the time, no one knew we really had a problem. And we 
have been working with that program and with the program at 
Tompkins Cortland Community College to develop programs that 
can basically better prepare our young people for careers in 
cyber security.
    I can't stress enough how important it is for our 
cooperation between business and industry and colleges and 
universities in order to be able to build and structure these 
programs. The reason is that as you look at this field of 
study, it is emerging and it is changing on a daily basis. And 
sometimes we call it, at Internet speed, the threat and the 
cyber weapons that are against us are changing. Therefore, the 
curriculums that have to be provided for those students that 
are coming up in this particular area need to be flexible. They 
need to be expandable. They need to be modifiable. They need to 
be able to be delivered in multiple forms.
    So we kind of took an approach to try to work with those 
colleges and universities to help develop those programs. And I 
am happy to say that we think it has been a great success. Many 
members of our staff have spent countless hours actually 
teaching in those programs as adjunct faculty. And we believe 
that brings a lot, both to the students and the faculty at 
those universities that we work with. And one of the real 
primary objectives of that relationship between our staff and 
our people and the universities is to build internship programs 
for those students to be able to move into this field of study.
    I can't stress enough how important internships are to this 
process. The reason is that at a university or a college level, 
a lot of theory is taught. But unfortunately, in this 
particular area, practical experience is absolutely essential. 
One of the reasons is that cyber security, especially in the 
form of digital investigation, requires knowledge both in the 
social sciences as well as the computer science area. And the 
bridging of the gap of those two things requires a great deal 
of work, because they tend to be taught in two different areas 
of most universities and colleges. So our ability to bridge 
that gap, to bring social scientists and computer scientists, 
criminal justice and computer science folks, together is 
absolutely critical in order to advance this. And we have done 
that through internship programs.
    I am proud to say that we have been able to hire 14 interns 
over the last 31/2 years at our company from Utica College, 
Tompkins Cortland Community College, Syracuse University, 
Binghamton University in order to bring those into our 
organization. Over half of them have been offered and accepted 
full-time employment with our company after graduation. Many 
others have gone on to other careers in law enforcement, 
intelligence defense, and corporate security. And our ability 
to be able to continue that program, to be able to advance that 
educational model of internship, is absolutely critical.
    There are many programs out there that are being trained by 
vendors, by folks that are in the commercial sector that are 
providing training for folks that are already in law 
enforcement, in cyber education, and cyber security that have 
to go on afterwards. And that training is very expensive. It 
does not end after graduation from college. In many cases, the 
folks that are actually on the front lines protecting us on a 
day-to-day basis are law enforcement professionals that 
actually did not come up through the computer science track. 
They actually came up through the criminal justice track. But 
now, virtually every case that they work with involves some 
sort of cyber or computer evidence or computer investigation is 
required. So they have had to go back and take courses in order 
to basically bring themselves up to speed to be able to do this 
kind of investigation.
    I want to tell this committee that every single week we get 
requests from those individuals to come to our training courses 
that are seeking education, and in many cases, those young men 
and women that are in those services are paying for that 
training themselves. They are taking time off from their job 
using their vacation to basically go get trained in this area, 
because it is that important. They are giving up time with 
their family and their hard-earned money in order to be able to 
perform that training, and it is something that we need to 
support them with.
    So I have many more things to say, but I am going to yield 
to the next member, and I appreciate this opportunity to convey 
some of the thoughts and some of our experience.
    [The prepared statement of Mr. Hosmer follows:]

                  Prepared Statement of Chester Hosmer

    Mr. Chairman and Members of the Committee: My name is Chester 
Hosmer; and I am a co-founder and the President and CEO of WetStone 
Technologies, Inc.
    I would like to thank you for the opportunity to testify regarding 
Cyber Security Education. This area has been, and continues to be a 
focal point of our work at WetStone from many perspectives. I will 
focus my remarks on our practical experience with Cyber Security 
Education as an employer, educator, and trainer, and I will limit my 
focus to the areas that we are intimately involved in digital 
investigation and cyber defense. I hope that our ``hands-on'' 
perspective will provide an interesting frame of reference for this 
committee.
    WetStone was established in 1998 and is headquartered in Cortland, 
New York. We perform advanced research and development in cyber 
security for government and corporate customers. We also develop 
commercial software products that aid in digital investigation and 
cyber defense, and we provide advanced training for digital 
investigators. During the past two years, our focus has been on cyber 
security training which includes advanced courses in Steganography and 
Malware Investigation, two technologies used extensively by cyber 
criminals. During that time we have delivered training to over 1,000 
federal law enforcement agents, DOD information warriors, State and 
local law enforcement investigators and corporate security 
professionals. The demand for training in these advanced areas has 
grown rapidly over the past two years to the point where we are 
typically conducting two or three trainings per month, both in our 
Cortland training facility, in conjunction with cyber security 
conferences and at customer's on-site locations.

What knowledge and skills are currently needed in the cyber security 
                    workforce?

    Those tasked with investigating cyber crime or defending against 
cyber threats require knowledge of the domain, specialized skills and 
practical experience. The need is currently both wide and deep. A 
thorough basis and understanding of investigation techniques either 
from a criminal justice or law enforcement background, or a formal 
education program is required. However, when investigating cyber crime, 
a strong operational and procedural technical knowledge rooted in the 
computer science field, is also necessary. Unfortunately, most Criminal 
Justice university programs are offered out of the Social Science 
departments at universities, where Computer Science a hard science, out 
of the math or computer science departments. Building programs that 
cross domains is quite difficult for many reasons, and the student 
typically lacks depth in either area, and is ill prepared for digital 
investigation after graduation. We are however, beginning to see an 
increase in specialized Computer Forensics programs which give students 
the background necessary for advanced digital investigation.
    Many of the current investigators have come through the traditional 
law enforcement track and learned basic investigation techniques by 
working task force assignments (narcotics, homicide, child 
exploitation, etc.). As their cases began to include more and more 
computer based evidence, the investigators sought training programs 
that would allow them to seize, extract, examine, analyze and give 
related testimony about digital or cyber evidence.
    Many colleges and universities are attempting to meet the needs of 
the cyber first responder by offering evening classes or special 
workshops. However, the colleges and universities are not equipped to 
offer the advanced ``hands-on'' training courses needed. In many cases 
to properly teach these skills, special technology, dedicated 
laboratories, field knowledge, and extensive preparation is required. 
Further complicating college based offerings, is the rapid evolution of 
both the cyber threats and the defenses necessary to counteract them. 
This instability in curriculum content makes it very difficult for 
colleges and universities to develop programs under traditional models.

Have cyber security education and training programs been sufficiently 
                    flexible to respond to these needs as well as the 
                    needs of traditional and returning students?

    The current state-of-the-art of cyber security education and 
training is varied. Many colleges and universities are now offering 
both courses and curriculums that range from Junior colleges programs 
offering A.A.S. degrees, undergraduate education offering B.S. and B.A. 
degrees, and graduate degree programs offering both Master's and 
doctorial degrees that relate to cyber security. I have personally been 
involved in three specific programs being offered at two colleges. At 
Utica College of Syracuse University, I have been privileged to teach 
in both the Economic Crime Investigation undergraduate program, and the 
Economic Crime Management Master's level program. Currently, I serve as 
the Director of the Computer Forensic Research and Development Center 
at Utica College and I guest lecture in both the computer security and 
computer forensic classes. At Tompkins Cortland Community College 
(TC3), a Junior college of the State University of New York, I had the 
pleasure of working with the administration and department heads to 
help establish the first Associates Degree program in Computer 
Forensics in the United States, and I continue to guest lecture in this 
program today.
    Many commercial vendors are offering training programs that 
typically relate to their own specialized technology or product and 
service offerings. In most cases these classes are cost prohibitive for 
individual purchase and often place a hardship on limited department 
budgets. Training programs of this type vary widely in price, however a 
good rule of thumb is about $750-$1,000 per day not including expenses. 
Advanced training courses typically run 2-5 days in duration. 
Investigators spend about 1-2 weeks per year on the training required 
to keep up to date with the state-of-the-art. Compounding the high cost 
of the training itself, is the time required away from the job. Those 
working in more rural communities must incur additional travel expenses 
on top of the high cost of the training. Since these costs recur every 
year based on the rapid changing landscape of cyber security, a minimum 
investment of $25,000 to $35,000 per year, per investigator is 
necessary. Distance learning would seem to be an obvious option that 
could mitigate some of these costs. This does offers a promise for the 
future, however, to date only a handful of cyber security training 
courses are offered in this manner and additional study, research and 
development is needed.

What are the current strengths and weaknesses in cyber security 
                    education and training programs?

    Strengths--During the last several years new college based 
curriculums have been developed to address the demand for cyber 
security professionals. These programs are being offered at every level 
of secondary education, and the expertise of the faculty and curriculum 
development continue to rapidly advance. Options for Associates, 
Undergraduate and Graduate degree programs offer both new students and 
those wishing to advance their careers several options from which to 
choose. Also, many of these curriculums are offered in a ``continuing 
education environment,'' allowing those currently working to 
participate as well.
    Training offered by private companies, and conference and workshops 
are providing excellent content today. This type of training has many 
positive characteristics. First, the content tends to be well aligned 
with the current threats and solutions due to the competitive nature 
this environment offers. In addition, the quality of both the trainers 
and content is sound due to the demand of customers, organization 
members or conference participants. We see this clearly as the largest 
area of expansion over the past several years. Conference participants 
can now attend advance training course, receive college credits, take 
examinations for industry certifications, stay abreast of emerging 
trends and network with colleagues during a typical five-day 
conference.
    Weaknesses--Although the education programs have quickly ramped up 
to develop curriculums and degree offerings to help meet the needs, the 
graduates of these programs require significant training on practical 
cyber security matters after graduation, and throughout their careers. 
In addition, typical college and university based programs have a 
difficult time staying abreast of current trends. Unfortunately, in the 
business of cyber security, the trends are changing so rapidly that 
crafting curriculums to meet the needs is a challenge. This not only 
goes to the curriculum, but also the tools and technologies and 
expensive laboratory equipment and software necessary to expose the 
students to the latest methods.
    The majority of the training programs currently being offered to 
provide practical skills by both private and non-profit organizations 
are non-standardized, ad hoc and mostly difficult to qualify or assess. 
This makes the selection of these programs for training extremely 
difficult, and the satisfaction level of the attending student low. 
Unfortunately, due to the rapid evolution in the cyber threat, training 
is a recurring consideration for both new hires and veteran employees. 
No uniform certification process for training courses or trainers is in 
place today to help assess the quality and/or value of the training 
programs offered. Many organizations utilize colleges and universities 
to ``accredit'' their course offerings and deliver continuing education 
credits to those that complete the training classes. Students then have 
a number of CEU credits from a variety of colleges and universities 
with no way to combine those for a degree. In many cases students end 
up with 100's of hours of seemingly unrelated course credit, when in 
fact they have acquired more knowledge than most four-year college 
students attending a traditional academic program.

Do model programs exist and, if they do, are they being adapted to meet 
                    local cyber security needs?

    The National Security Agency (NSA) has created The Centers of 
Academic Excellence in Information Assurance Education (CAEIAE) 
program. Established in November 1998, this endeavor helps NSA partner 
with colleges and universities across the Nation to promote higher 
education in Information Assurance (IA). This program is an outreach 
effort that was designed and is operated in the spirit of Presidential 
Decision Directive 63 (PDD 63), the Clinton Administration's Policy on 
Critical Infrastructure Protection, dated May 1998. The program is now 
jointly sponsored by the NSA and Department of Homeland Security (DHS) 
in support of the President's National Strategy to Secure Cyberspace, 
February 2003. The goal of CAEIAE is to reduce vulnerability in our 
national information infrastructure by promoting higher education in 
information assurance (IA), and producing a growing number of 
professionals with IA expertise in various disciplines.'' \1\ In New 
York, Pace University, Polytechnic, SUNY Buffalo, SUNY Stony Brook, 
Syracuse University and the U.S. Military Academy, West Point have been 
certified.
---------------------------------------------------------------------------
    \1\ http://www.nsa.gov/ia/academia/caeiae.cfm
---------------------------------------------------------------------------
    Numerous options for training are available at the federal level, 
including FBI Quantico, the Federal Law Enforcement Training Center 
(FLETC), the Secret Service Training Center and many others. State and 
local law enforcement typically with smaller budgets, receive training 
from private for profit or non-profit organizations such as the High 
Technology Crimes Investigation Association (HTCIA), InfraGard, the 
National White Collar Crime Center, the National Law Enforcement 
Training Center (NLETC) along with many others. In many cases the 
investigators and officers pay for membership and training out of there 
own pocket. At WetStone we have first hand experience with this 
phenomena and receive multiple requests weekly to attend our training 
by these individuals paying with their own funds to stay current with 
the emerging threats.

What partnerships should two-year and four-year colleges and 
                    universities forge with business and industry to 
                    build appropriate programs? In your opinion, is 
                    there sufficient collaboration with industry at the 
                    administration (advisory committees), faculty 
                    (return-to-industry) and student (internship) 
                    levels to accommodate rapid changes in these 
                    professional and technical areas?

    The experiences over the course of my 20+ years in this industry, 
both in and out of the classroom have provided me with a very 
interesting perspective regarding not only the needs but the progress 
that has been made. First, I must say that the young men and women 
seeking education in these areas are some of the best and brightest I 
have had the privilege to work with. I learn more every time I enter 
the classroom either in an academic or training setting than I could 
possibly repay. During the very early days of WetStone, we launched an 
aggressive internship program for those working on degrees in cyber 
security. This program is still in full swing today. The idea was two 
fold, first to be directly involved in the education process by 
teaching in the classroom; and second to provide internship 
opportunities for students that had interests in pursuing a career in 
cyber security research and development. I am happy to report to this 
committee that this approach has been a stellar success. To date we 
have executed 14 internships in cyber security, involving students from 
every college level. Over half of these students have accepted full-
time employment with our company after graduation. In addition to the 
internships at the college level, in June of 2003 we initiated a high 
school internship program for high school juniors and seniors 
considering a career in cyber security. Our first high school intern 
Jeff Olson of Cortland High School is with us again this summer. Jeff 
graduated in June and will be going on to the Rochester Institute of 
Technology RIT where he will be studying computer engineering. Based on 
the success of the high school program we are expanding this internship 
in the fall to include two additional high school students.
    The advancement and availability of education, training and 
internship programs is paramount if we are to strengthen our nation's 
cyber security workforce. For example, education at the undergraduate 
level must include practical as well as theoretical aspects. In this 
field of study, the state-of-the-art is changing daily and those 
engaged in education must keep abreast of current trends 
(technological, legal and operational). In addition, I believe it is 
important that internships should be a requirement for those working in 
this field. Without functional internships students graduating will 
continue to lack practical skills that are a requirement for success. 
This recommendation should not be taken lightly. A serious commitment 
by the student, the college or university, and the private sector is 
necessary to make this endeavor successful. One metric that we have 
developed for our own cyber security internship program is the 2-for-1 
rule. For every two cyber security interns we hire, we need to dedicate 
one-full time staff member to direct and mentor the interns--a 
significant commitment for large or small companies. In many cases 
employers consider only the labor cost of the interns when making an 
intern program decision, when in fact the cost is many times higher. 
However, long-term commitments are necessary, and your ability to 
mentor these students during their junior and senior years will pay 
significant dividends after graduation--as they step directly into the 
organization and begin producing and contributing immediately. Also, 
the colleges and universities are required to commit staff hours to 
monitor the process the internships in the field. These monitors need 
to be selective as to the environments that students consider--again 
requiring extensive planning and follow-up for an already overloaded 
schedule. However the payoff here again can be considerable. By 
interfacing directly with prospective employers, educators are able to 
identify gaps in their curriculum, get feedback as to the student's 
preparation, and directly improve the overall programs.
    Colleges and universities must forge partnerships with both the 
public and private sector. In my opinion the internship model is one 
that should be considered. This model provides all the elements 
necessary to better prepare students for the workforce and to garner 
direct feedback throughout the life cycle of the cyber security 
curriculum development. As new issues and threats are revealed, this 
feedback will be focused and swift. The internship opportunities also 
allow the colleges and universities to build relationships with 
employers that will better define and characterize the jobs these new 
cyber warriors take on. This understanding will again help shape the 
curriculum as a whole, along with shaping the syllabus of specific 
courses. One other benefit of this approach will be the access to local 
experts that are willing to guest lecture in the classroom. These local 
experts educate everyone in this environment (professors, students and 
colleagues) not to mention what they may learn while interacting with 
the next generation workforce. I realize that in writing this one may 
think there must be and easier way, because this sounds like hard work. 
Unfortunately, I'm not sure there is a silver bullet, as the 
responsibility for advancing the cyber security of the country should 
fall to everyone's shoulders. In almost all cases, we have forged these 
relationships--one student, one professor, one college, one department 
head at a time. We must all take a passionate interest in advancing our 
capabilities against the ever increasing cyber threat and get our hands 
dirty, and give back what we learn and know about every aspect of this 
threat. Today, the criminals and terrorists communicate and they share 
information about weaknesses, system vulnerabilities, our critical 
infrastructures, social engineering, stolen passwords, credit card 
numbers, malicious code and the latest cyber weapons freely and 
virtually unchecked over the Internet. We must do the same. And I 
believe education and training are the basis and the first critical 
step. At WetStone we adopted a quote as our company's vision in 1998. 
The quote came from a different time when our nation was facing a 
different adversary, but as often happens, the words of great men 
withstand the test of time. Robert Kennedy said in 1960, ``If we do not 
on a national scale attack organized criminals with weapons and 
techniques as effective as their own they will destroy us.'' By 
dedicating ourselves to the transfer of knowledge in cyber security to 
those that are defending, or will defend us, we can train the workforce 
of the future and begin making a difference today.

What can the Federal Government do to improve cyber security education 
                    and build the Nation's technical workforce?

    I feel that the Federal Government can have direct impact on the 
advancement of education and training in cyber security from several 
perspectives.
    First and foremost, cyber security training and education can be 
made more accessible to our men and women in law enforcement who today 
can only advance their education and training in this area by spending 
their personal funds, trading their vacation time, or giving up time 
with their families to attend a training course that will ultimately 
help them defend our nation. Offering them assistance to participate in 
qualified education and training programs will accelerate the process 
for those already investing in our future and encourage those that 
today do not have access.
    Second, incentives to colleges, universities and the private sector 
to create internship opportunities in cyber security can be increased. 
The cost required to carry out this endeavor is staggering today, 
however, in my opinion this is an investment that we cannot afford to 
overlook.
    Third, national accreditation of cyber security education and 
training programs that would allow those to combine credits and 
experience to obtain higher education degrees in a flexible, fair and 
non-traditional form is urgently needed. We need to not only attract 
today's young people entering college into this field, we must also 
encourage those that have many years of street experience in law 
enforcement to gain the recognition based on their years of investment 
in our future. When they step on the street tomorrow, they may 
encounter ``cyber evidence'' that could in-fact hold critical 
information that would preempt a crime, a pending terrorist action, or 
the exploitation of a child. Their preparedness, I believe, should be 
our paramount concern.
    I would like to thank the Committee for this opportunity to present 
my experience, thoughts, views and perspective on cyber security 
education and training.

                 Biography for Chester ``Chet'' Hosmer
    Chet Hosmer is a co-founder, and the President and CEO of WetStone 
Technologies, Inc. He has over 25 years of experience in developing 
high technology software and hardware products, and during the last 15 
years, has focused on research and development of information security 
technologies, with specialty areas including: cyber forensics, secure 
time, and intrusion detection and response.
    Chet is a co-chair of the National Institute of Justice's 
Electronic Crime and Terrorism Partnership Initiative's Technology 
Working Group, and was one of five international steganography experts 
interviewed by ABC News after the 9/11 al-Qaeda attacks. Chet has been 
quoted in numerous cyber security articles, and has been invited to 
present as both a Keynote and Plenary speaker numerous times over the 
course of his career.
    Chet is a member of the IEEE and the ACM, and holds a B.S. degree 
in Computer Science from Syracuse University. Chet is also the Director 
of the Computer Forensics Research and Development Center of Utica 
College.

Selected Publications and Speaking Engagements:

``Steganography Detection: Finding Evidence in Plain Sight,'' 15th 
        Annual ACFE Fraud Conference and Exhibition, July 12, 2004
``Scanning-Detecting-Eradicating--and Recovering from the Malware 
        Invasion,'' Techno Security 2004, June 8, 2004
``Time: The Missing Link in Digital Integrity,'' Gorham International 
        Conference, May 25, 2004
``Bigger Than Viruses-How Malicious Software Can Affect Your 
        Business,'' Tech 2004, May 4, 2004
``Discovering Evidence Hidden In Plain Sight,'' Southeast Cybercrime 
        Summit 2004, March 3-4, 2004
``Biometrics and Digital Evidence'' with Countryman, B. The Security 
        Journal, Winter 2004, Volume 6
``Protecting the Homeland using Biometric Identification,'' Sector 5--
        The Global Summit Exploring Cyber Terrorism and the Targets of 
        Critical Infrastructures, August 21-23, 2002
``Steganography Detection: Finding Evidence Hidden in Plain Sight,'' 
        Forum on Information Warfare, December 2003
``Applying Hostile Content Detection to Digital Forensic 
        Investigation,'' The Security Journal, Fall 2003, Volume 5
``Cyber-Terrorism: Digital Steganography and its Implications for 
        Homeland Security,'' Securing the Homeland Conference & Expo, 
        September 10, 2003
``Steganography as It Relates to Homeland Security,'' Electronic Crimes 
        Task Force Homeland Security Seminar, September 4, 2003
``Discovering Covert Digital Evidence,'' DFRWS Conference, August 6, 
        2003
``What You Can't See Can Hurt You--The Dangers of Steganography,'' The 
        Security Journal, Summer 2003, Volume 4
``Digital Steganography: The Evolving Threat,'' Techno-Security 2003, 
        April 29, 2003
``The Importance of Digital Time in Preventing Economic Crime,'' 
        CyberCrime 2003, February 9, 2003
``Tracking Cyber Criminals With Time,'' NATO Inforensics and Incident 
        Response Workshop Keynote, October 22, 2002
``What You Can't See Can Hurt You,'' SC Magazine, August 2002
``Proving the Integrity of Digital Evidence with Time,'' International 
        Journal of Digital Evidence (IJDE), Spring 2002, Volume 1, 
        Issue 1
``Steganography Detection: Finding Evidence Hidden in Plain Sight,'' 
        Techno-Security 2002, April 10, 2002
``The Importance of Binding Time to Digital Evidence,'' 12th Annual 
        Economic Crime Investigation Institute Conference, October 30, 
        2001
``Technical and Legal Issues in Network Intrusion Investigations,'' 
        with W. Williams and A. Ott, October 31, 2000 11th Annual 
        Economic Crime Investigation Institute Conference. Cyber Swords 
        and Shields Fraud Symposium, October 3-5, 2000
``State-of-the-Art of Computer Forensics,'' 10th Annual Economic Crime 
        Investigation Institute Conference, November 9, 1999
``Advancing Crime Scene Computer Forensics Techniques,'' with J. 
        Feldman and J. Giordano, SPIE's International Symposium on 
        Enabling Technologies for Law Enforcement and Security 
        Conference, November 1998
``Using SmartCards and Digital Signatures to Preserve Electronic 
        Evidence,'' SPIE's International Symposium on Enabling 
        Technologies for Law Enforcement and Security Conference, 
        November 1998
``System Modeling and Information Fusion for Network Intrusion 
        Detection,'' with N. Ye, J. Feldman, and J. Giordano, ISW '98, 
        October 1998
``Detecting Subtle System Changes Using Digital Signatures,'' with M. 
        Duren, 1998 IEEE Information Technology Conference, September 
        1998
``Time-Lining Computer Evidence,'' 1998 IEEE Information Technology 
        Conference, September 1998
``The Role of Smart Tokens in Cryptographic Key Management,'' with P. 
        Samsel, PARAPET Journal of Information Security, Autumn 1997
``Controlling Internal Fraud: Detection and Countermeasures Using 
        Intelligent Agents,'' Economic Crime Investigation Institute 
        Eighth Annual Conference, Oct. 27-28, 1997
``Developing Solutions That Employ Tamper Proof Token Devices to 
        Protect Information Integrity and Privacy,'' IEEE Dual-Use 
        Technologies and Applications Conference, May 1997
``Securing Lottery Electronic Instant Ticket Technology,'' with M. 
        Holcombe, 1994 National Lottery Technology Conference, November 
        1994

Media Coverage

``Secret Codes'': NHK Japan Television, December 2002
``A Novice Tries Steganography''--Tech TV--Cyber Crime Show, January 
        2002
``A Secret Language''--ABC News Prime Time Thursday, October 4, 2001
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Boehlert. Thank you very much.
    You will be interested to know that you were only 45 
seconds beyond the five minutes.
    Our next witness, Mr. Baker, is accompanied by a support 
staff, his young son, Chris, who is behind him in the audience 
and who is working on a scouting merit badge in citizenship. So 
what we are talking about here, in many respects, is dealing 
with human capital for the future. So I am glad to see Chris 
here with you, Mr. Baker.

   STATEMENT OF MR. JOHN R. BAKER, SR., DIRECTOR, TECHNOLOGY 
   PROGRAMS, DIVISION OF UNDERGRADUATE EDUCATION, SCHOOL OF 
 PROFESSIONAL STUDIES IN BUSINESS AND EDUCATION, JOHNS HOPKINS 
                           UNIVERSITY

    Mr. Baker. Thank you, Mr. Chairman.
    Thank you for the opportunity to speak today, and as you so 
eloquently indicated, I am director of the undergraduate 
programs in technology in the School of Professional Studies in 
Business and Education at Johns Hopkins University. In that 
capacity, I run both our undergraduate degree programs in 
information system with concentrations in both information 
security and cyber forensics and the public technology training 
programs that we run.
    We define ``cyber security'' as the process of informing 
technology professionals, end users, managers, and researchers 
about the technical and non-technical aspects of protecting 
their information resources and expanding our knowledge in the 
field. As I indicated before, it is a multidisciplinary 
approach. It has both breadth and depth, including math, 
science, technology, business, law, psychology, and personal 
issues. It includes topics that range from simple virus 
protection to a lot more elaborate forms of security technology 
detection, investigation, prevention, as well as many non-
technical areas. In addition, its audience includes end users, 
technology professionals, managers, and researchers. 
Consequently, information technology--information security 
education necessarily covers a wide range of topics at a 
variety of levels.
    In addition to the specific topics, programs in the area 
must address issues such as the demand for graduates, the 
differences between training and education, program 
development, faculty hiring and development, research, and 
developing the field as its own discipline, and recognizing and 
accepting educational standards, and keeping costs manageable 
while keeping programs current and the potential for student 
background checks. To ensure program success, the educational 
institution must have some understanding of the need or demand 
for program graduates. Potential students with little or no 
employment opportunities will not select any given program.
    In the area of education and training, a strong 
differentiation between the two must be understood. Training is 
generally focused on product or a specific set of skills in an 
area. Education's goals are multi-purpose: teach the specific 
technology skills, develop critical thinking and problem-
solving skills, improve the knowledge of the field, improve 
communication capabilities and information literacy skills, and 
foster research interests.
    As for program development, it is both costly and time-
consuming. It can take a year or longer for a program to be 
fully developed and implemented. There are many questions to be 
addressed in the development and implementation of a program 
and steps to be worked through.
    Faculty is a key to a program's development and success. 
Questions such as the role of full-time and part-time faculty, 
faculty knowledge and development, and the role of research are 
constantly being addressed. Each requires considerable 
analysis.
    One way to encourage involvement in the field is to define 
it as a discipline. Components of this include the availability 
of research money and the development of educational standards, 
especially as they relate to employment opportunities.
    As with all such endeavors, cost is an important factor. 
Costs obviously include the specific technology components, 
however, they also include facility set up, management and 
maintenance, academic program development, implementation and 
management, faculty hiring and development, and the potential 
for other components, such as background checks.
    A more recent issue that has surfaced is this issue of 
student background checks. Some have expressed concern that we 
may need to determine the suitability of a student for these 
types of programs. However, there are many questions to be 
addressed before this issue can be resolved. Johns Hopkins has 
taken an institution-wide approach to both education and 
research components.
    Our academic community has developed educational components 
and/or degree programs that span almost all disciplines and 
topics in the information security field. Johns Hopkins has 
created the Johns Hopkins University Information Security 
Institute, implemented security education in all of its 
schools, created separate academic programs and program 
collaboration specifically for information security and cyber 
forensics, and encouraged research in a number of security-
related areas. The undergraduate program in our school focuses 
on both sides of the security incident before and after the 
security preparation and cyber forensics.
    There are some areas the Federal Government can be of 
assistance: include more complete funding for the NSF 
initiatives, encourage the development of educational 
standards, work with private industry and state governments to 
provide scholarship opportunities for their potential 
employees, and assist some government agencies in absorbing the 
graduates of the Scholarship for Service Program.
    More information on these are provided in the detailed 
testimony I have submitted to the Committee separately. I would 
like to take this opportunity to again thank you for this 
opportunity to speak to the Committee.
    [The prepared statement of Mr. Baker follows:]
                Prepared Statement of John R. Baker, Sr.

1. Cyber Security Education

    Cyber Security Education is the process of informing technology 
professionals, end-users, managers and researchers about the technical 
and non-technical aspects of protecting their information resources, 
and expanding our knowledge in the field. It is a multidisciplinary 
field that is both broad and deep. The field is constantly evolving to 
incorporate more components based on current and historical events and 
research. The term itself refers both to security aspects as well as to 
cyber forensics. It requires simultaneous education, training and 
research in multiple areas (technology, business, management, finance, 
psychology, computer science, etc.)
a. Components of the Field: Technical, Managerial, Operational
    Cyber Security Education is more than just the technical aspect of 
detecting or eliminating the latest virus, or preventing hacker attacks 
(the public personae). It requires knowledge of technical areas, 
addressing management, and how to infuse security practices into the 
everyday operational aspects of an organization. Technical aspects 
include firewalls, network security, cryptography and software 
development.
    Managerial components include personnel issues, disaster recovery 
planning, funding (direct and indirect costs, ROI, payback), the 
psychology or mind-set of a perpetrator, operational security 
management, public relations and legal/regulatory components. 
Operational issues include day-to-day security operations, both for the 
security field professional and the everyday user.
    Each part of the field involves varying levels of research, 
education and training. Research investigates new technologies, 
financial issues, approaches to security management, personnel issues 
and legal/regulatory needs. The most recognizable research is on the 
technological components of information security.
b. Education vs. Training
    Often interchangeably used, education and training differ greatly. 
Education's goal for the student is multi-purpose: teach them specific 
technical skills, develop critical thinking and problem-solving 
abilities, increase the knowledge of the vast background material in 
the field, improve communication capabilities and information literacy 
skills, and engage the student in some form of research.
    Training is generally focused on a product or specific set of 
skills in an area. However, at its highest level, some training 
attempts to approximate education, typically by improving some of a 
student's background knowledge in a field and/or developing problem 
solving capabilities.
c. Research and Education
    A major methodological issue for a university is whether to focus 
on research or on classroom education. University reputations are based 
on faculty research and the institution's research abilities. Johns 
Hopkins University was the first U.S. university to include research in 
the educational process. Typically, university research has not been 
focused specifically in the areas of information security or cyber 
forensics. Research for these areas is done in various other 
disciplines that directly or indirectly affect these fields.
d. Emerging Discipline
    Because of its breadth, Cyber Security Education is a young field 
and not currently recognized as a discipline. At the moment it has not 
yet been accepted as a discipline of its own. It has components in 
various areas: mathematics, computer science, business, finance, 
engineering, psychology, law, etc. Consequently, research, education 
and training occurs in each of these disciplines independently. For 
example, research in the field of mathematics may result in a better 
crypto-key system.

2. Programs at JHU

    Johns Hopkins has responded to the need for intensive research, 
education and training in cyber security in all of its academic areas. 
Some of its programs were in place before the events of Sept. 11. 
However, all schools at the university have implemented or are in the 
process of implementing, information security education and/or research 
in their academic disciplines. In addition, Hopkins has created the 
Johns Hopkins University Information Security Institute whose goals are 
to foster research in information security, help develop 
multidisciplinary approaches to security education, provide seminars 
and other educational activities, and advance the literature in the 
field.
a. Internal Programs
    Almost all schools at Hopkins have incorporated some form of 
security education. Depending on the program and level, it could 
include simple background knowledge about the area and how security 
applies to the specific educational discipline, or it could include in-
depth studies into security approaches in a field, practical 
applications or advanced security research.
b. Internal Collaboration
    Several of Hopkins' Schools have collaborated on academic programs 
that are interdisciplinary in nature. The flagship program at Hopkins' 
Information Security Institute is the Master's of Science in Security 
Informatics (MSSI). It is a collaboration of several schools at 
Hopkins: Whiting School of Engineering, Krieger School of Arts and 
Sciences, Bloomberg School of Public Health, Nitze School of Advanced 
International Studies and the School of Professional Studies in 
Business and Education. Over 25 full-time, part-time or adjunct faculty 
are available to deliver the MSSI courses at multiple Hopkins' sites in 
the Baltimore-Washington area.
    In addition, some schools at Hopkins have developed internal 
collaborations across academic levels. The Whiting School of 
Engineering and the Krieger School of Arts and Sciences jointly offer a 
concurrent Bachelor's/Master's program in security. The School of 
Professional Studies in Business and Education offers a joint 
technology Bachelor's/Master's degree, with a concentration in 
information security.
c. External Collaborations
    The School of Professional Studies in Business and Education is in 
the process of developing joint programs with several area community 
colleges. These would provide students at two-year institutions 
complete academic program opportunities at the Bachelor's level, and 
extending into the Master's level.
    The joint program offered by the Whiting School of Engineering and 
the Krieger School of Arts and Sciences includes opportunities for 
undergraduates of other local universities, which have established 
agreements with these Hopkins schools.
d. Research, seminars, courses/teaching, publishing
    The Johns Hopkins Information Security Institute has become the 
focal point for information security research at the university. Over 
15 full-time faculty or JHU Applied Physics Laboratory researchers are 
involved in some aspect of information security research.

3. Strengths & Weaknesses of Current Education

a. Education or Training
    Often a potential employee seeks the short-term goal of satisfying 
a potential employer's advertised need, through specific skill-set 
training. Many potential employees view the requirements indicated in a 
particular employment ad, then attempt to obtain the specific skill 
required (CISCO training, CISSP certification, etc.). While potentially 
valid as an entry into the field, or for specific job requirement, 
these are not intended to indicate the wider-range of skills and 
abilities many employers seek.
    Education rather than training provides potential employees this 
wider-set of knowledge and abilities, in addition to specific 
technology skill sets (not necessarily for a specific product). These 
include: critical thinking and problem-solving, knowledge of the vast 
background material in the field, communication, information literacy 
and some form of research. Often a student in a program wants to know 
if they will be learning Product-X. The answer is usually that the 
program may teach you some things about Product-X, but its goal is to 
teach you how to learn, and apply that skill to learning about 
different products. At times we may use various products (including 
Product-X) as examples in our classes or for demonstration purposes, 
but the goal is not to teach a specific product.
    In addition, education is intended to develop the next generation 
of researchers in a discipline. Because of the nature of the 
information security field, much of the research is focused in other 
disciplines. For example, a math researcher may apply their findings to 
the information security field.
b. Costs:
    The cost of education programs covers many components: physical 
items, facilities management, program development and maintenance, and 
faculty hiring, training and education.

1. Facilities Set-up and Management

    Teaching state-of-the-art information security or cyber forensics 
programs requires facilities that can handle the technology. This means 
some form of computer lab capability, typically networked. While the 
most current technology is not absolutely necessary, the more dated the 
technology the more difficult it is to get current and potential 
students and employers to accept a program as useful. It is a constant 
problem to remain current enough to teach the most important components 
of security and forensics, and still not spend `every last dime' on the 
most recent technology.
    An additional component is the style or set-up of lab facilities. 
Most lab set-ups will be done in one of two approaches: a dedicated lab 
or a multi-purpose lab. Dedicated labs are designed for a specific 
program, and have minimal impact on other programs or facilities. 
However, they will sit idle when the specific educational program is 
not offered. In addition, management of these labs may be easier (for 
program setup and use), but they are almost always `locked down', and 
only allowed for students of the specific program. No other use is 
allowed because of the sensitive nature of the set-up, and because of 
the potential problems with other areas. For example, if a lab virus or 
other destructive software is unintentionally allowed into another lab 
facility, that facility may become corrupted. If it is a networked 
facility, others may also become corrupted.
    Multi-purpose labs are more functional, but can be much more costly 
in terms of set-up and management. These labs may need periodic 
isolation, a special set-up, and additional management. In addition, 
when they are used by the security or forensic program, disruption to 
other programs needing the lab will occur. This will include 
specialized set-up and clean-up time, in addition to the actual class 
time.
    All of these take time, resources and increase costs of program 
offerings. Hardware costs can range from $500 to $2,000 per machine, 
plus networking and software costs. Management time will include 
initial lab set-up, in addition to the individual class set-up and 
clean-up, depending on the type of lab. While difficult to provide 
specific cost estimates for this time, it can include several hours of 
a lab manager's time and up to 11/2 days of a support staff person's 
time, for each class session.

2. Program Development & Maintenance

    Development, implementation, operation and maintenance of an 
educational program can take more than a year. Typically, the process 
includes:

        a.  An assessment of the need for graduates of a program

        b.  Development of an advisory board

        c.  Identification of program components

        d.  Internal and external approval steps

        e.  Organization of the program into modules/courses

        f.  Development of the course material

        g.  Advertising/marketing the program

        h.  Program implementation

        i.  Constant program evaluation and improvement.

    While there are ways to speed up the process, each step is needed. 
In approving such programs, cost is always a major factor. Employment 
surveys, component development costs, hardware and software 
identification, developing appropriate course/lesson plans around them, 
marketing and oversight are the major ones.

3. Faculty

    Cost issues for faculty center on the issues of part-time vs. full-
time faculty, and the role of faculty in the program. Part-time faculty 
are usually used for teaching purposes, and to provide expertise in a 
specific topic area. While they may be involved in program development, 
they are not typically responsible for program development or success/
failure.
    Full-time faculty are involved in one or more aspects of program 
development, implementation, teaching, evaluation. In addition, in many 
institutions they are involved in research activities. This can be a 
source of cutting-edge knowledge, prestige and income for the faculty 
member and institution, but can also create problems. These and other 
faculty issues are addressed in section 4.a.
c. Background Checks
    A more recent problem that has surfaced is the issue of student 
background checks. With the events of September 11, increasingly 
questions of appropriateness of students in the classroom have arisen. 
A discussion of background checks raises many additional questions:

         1.  What is the purpose of the background checks?

         2.  How deep or wide will they go?

         3.  How much will they cost?

         4.  How long will they take?

         5.  Who will pay for them?

         6.  Who will do them?

         7.  What will we do with the information once it is obtained?

         8.  Will it prevent a student from entering a program or 
        restrict their access to certain courses or material?

         9.  Are they relevant given the availability of material on 
        the Internet?

        10.  Are they legal?

    Background checks are costly, time consuming and raise legal 
concerns around privacy and profiling. But, given the awareness of 
security concerns, additional guidance will be needed in this area.
d. Ethical Agreements
    Some programs have instituted ethical agreements with students in 
specific programs. They attempt to educate the student on the 
seriousness of the topic, and the expectations of professional and 
moral behavior that accompany the education. However, enforcement is 
difficult, especially outside the classroom or after the program is 
completed.

4. Faculty Preparation, Recruitment and Retention

a. Part-time vs. Full-time Faculty
    Identifying appropriate faculty for specialized programs such as 
information security and cyber forensics is a challenge. Generally, the 
options are:

        1.  Design the program around the current full-time faculty 
        knowledge base

        2.  Upgrade current full-time faculty skills/knowledge

        3.  Hire new full-time faculty, specifically for this program

        4.  Hire part-time, practitioner faculty to teach in the 
        program

    Designing the program around the current full-time faculty 
knowledge base is the easiest and least costly approach, but is usually 
the least desirable. Typically, their knowledge base is very specific 
and may not cover the broad-range of technical and non-technical topics 
required. Consequently, the program manager is required to augment the 
current knowledge base with additional, training or education, or 
hiring other faculty, either full-time or part-time. In addition, the 
current faculty knowledge base may already be out-of-date or too 
narrow.
    Upgrading current full-time faculty skills and knowledge is 
desirable and useful for them, but is time consuming and adds cost to 
the program development and operation. It may delay the program 
development and implementation.
    Hiring new full-time faculty may be quicker, but also costly. In 
addition, if the program is not commercially successful (and if they 
are not involved in research which generates grant income), the 
organization has incurred the additional faculty cost, with no 
offsetting income. That may mean the faculty position results in a 
short-term employment opportunity.
    Hiring part-time, practitioner faculty is often difficult and time 
consuming. While it provides the educational institution the least 
costly staffing solution, there are many other factors that affect the 
hiring decision. These faculty often:

        1.  Are not trained educators

        2.  Are already employed and consequently have problems with 
        pre-existing course schedules

        3.  Cannot teach during the day

        4.  May travel too much

        5.  May have only some allegiance to the program and/or 
        institution

        6.  May not have the necessary academic credentials

        7.  May not have a teaching aptitude

    When hiring part-time faculty the organization needs to commit to 
teaching them to be educators. Learning to educate at the college or 
university level requires some intensive interaction between the 
academic program manager and part-time faculty member, and a commitment 
on the part of the university to provide faculty development in the 
area of teaching skills and course/classroom management. In addition to 
creating a syllabus and organizing some lectures, the part-time faculty 
member will need to learn to manage the classroom environment, create 
and implement effective and fair evaluation instruments and assign 
grades. In addition, the faculty will need to evaluate student writing, 
incorporate critical thinking and problem-solving skills, include 
information literacy, develop creative presentation styles, and infuse 
current research into the education process. These can take some time, 
patience, and commitment on the organization's part, with no guarantee 
the part-time faculty member will continue with the program.
    In addition, the education organization needs to implement a 
support system for the part-time faculty member. This includes 
administrative support for typical needs (copying, book order 
processing, etc.), and academic support for course content, unexpected 
problems, articulating college/university policies on various issues 
and handling grading questions.
b. Teaching vs. Research
    In some educational organizations, full-time faculty may also be 
involved in research activities. While this can provide a terrific 
resource for the program in terms of up-to-date information in the 
field, and potential student involvement in the research, it can also 
create conflicts for the faculty. Research activities are often funded 
by grants and require intensive time commitments of the faculty. 
Consequently, less time is available for teaching.
c. Hopkins Approach
    Hopkins has implemented a variety of solutions to address faculty 
issues. In some schools, full-time faculty are involved in both 
research and teaching. In addition, part-time faculty are used in 
selected courses or program components to either provide the 
instruction or assist the full-time faculty member with their 
instruction.
    Others schools at Hopkins are using a large group of part-time 
faculty who are professionals in their area, to teach in their program. 
In addition to selecting fully qualified part-time faculty (based on 
factors such as professional experience, teaching experience, teaching 
aptitude, academic credentials and availability), they are provided a 
full range of teaching professional support from both the program 
manager and other groups with the organization.

5. Federal Government Assistance

a. Funding NSF Initiatives
    The National Science Foundation (NSF) has attempted to provide 
several opportunities to fund information security educational 
initiatives. Because of funding issues NSF has not been able to support 
innovative initiatives in information security education. Providing 
more complete funding for the NSF initiatives will help in the 
development of different and more complete academic programs.
b. SFS Graduates
    Evidently, one of the issues with the Scholarship for Service (SFS) 
program is the ability of government agencies to absorb the number of 
graduates. Some may need assistance in developing their plans and/or 
finding ways to hire the graduating talent. Others, (DOD, NSA, etc.) 
have indicated a strong need for qualified SFS graduates. One issue 
here may be the ability of the students to obtain appropriate security 
clearances.
c. Development as a Discipline
    Provide some funding to encourage the development of information 
security and cyber forensics as disciplines. This would encourage 
faculty to enter the field, develop research incentives, and provide 
money for the development applied and research-based academic programs. 
In addition, it would bring together research and education that is 
pertinent to the field.
d. Non-SFS Scholarships
    Working with the private sector and state governments, the Federal 
Government can help to develop scholarship programs to provide 
educational funding for students who may want to be employed in one of 
these areas. The private sector and state governments have as strong a 
need for information security professionals as the Federal Government. 
In some instances they may be on the front lines, or provide early-
warning notification to the Federal Government. Consequently, they need 
as much education in the security area as the Federal Government.

6. Other Issues

    In addition to the request information areas, these additional 
topics may be of interest:
a. Defining Educational Standards
    Developing educational standards in a discipline helps define it as 
a discipline. The defining of such standards would help the fields of 
information security and cyber forensics. While simple in concept, it 
is more difficult in practice. It would require the defining of 
security knowledge needs in various professions, and at different 
levels within a profession. For example, in a given industry there are 
system end-users, managers, technical staff and researchers. Each 
requires different levels and types of security education and skills. 
The end-user may need to understand how, and a little of why, a 
password needs to be changed regularly. In addition, the organization 
may be helped of they are educated about typical security breaches that 
can occur. Technical staff will need more in-depth education about 
preventing security problems from occurring, solving unexpected 
security problems and reporting them to the appropriate people.
b. Traditional-age Students vs. Returning Adult Students
    Students in an educational program are typically one of two types, 
the traditional-age student progressing through the academic process, 
as we have come to expect, and the returning adult student with several 
years of work experience. In most instances they are seeking the same 
result, entry into the information security field, either applied or 
research. At times they may co-exist in a program. However, typically 
specific part-time programs are usually offered for the returning adult 
student. These programs are not usually considered when issues 
concerning education are addressed.

                    Biography for John R. Baker, Sr.

EMPLOYMENT:

Johns Hopkins University, School of Professional Studies in Business 
        and Education, Baltimore, MD

Director, Undergraduate Technology Programs (July 1999 to present)

Key Responsibilities:
    Direct activities for undergraduate degree, certificates and non-
credit (training) programs in information and telecommunications 
technology. Responsibilities include: market assessment, program 
planning, course development and scheduling, budget management, 
marketing and strategic planning for academic technology needs. Also 
assisted in redevelopment of school-wide technology strategic planning, 
both academic and administrative.
Major accomplishments:

        --  Worked on team to develop strategic technology plan for 
        entire school for both academic and administrative areas

        --  Redesigned and implemented innovative undergraduate 
        technology degree (BS/Information Systems) and credit 
        certificate programs

        --  Redesigned and expanded non-credit (training) programs 
        (CONNECT)

        --  Manage on-site programs with local organizations

Graduate Faculty (Jan. 1998 to July 1999)

Key responsibilities:
    Assist business technology degree program director with program 
development and operation. Major areas include: course development and 
quality assurance, faculty development and quality, scheduling faculty 
assignments and managing graduate technology degree completion course.

Advanced Technologies Group, Columbia, MD (Aug. 1995 to June 1999)

Director, Consulting Services

Key Responsibilities:
    Direct activities to identify and secure potential consulting 
engagements, work with consulting clients, plan and manage projects, 
provide consulting expertise as needed and assist with business 
development. Responsible areas include: information systems, technology 
training, executive education program, telecommunications, technology 
in education, strategic technology planning, the Internet and World-
Wide-Web. Major clients include: AT&T, MCI, SAIC, U.S. Dept. of 
Interior, World Airways, U.S. Dept. of Veterans Affairs, StorComm Inc., 
and Amnex Inc.

Johns Hopkins University, School of Continuing Studies, Baltimore, MD 
        (Nov. 1987 to Aug. 1995)

Director, Technology Programs (Nov. 1987 to August 1995)

Key Responsibilities:
    Directed activities for large program of graduate and undergraduate 
degrees in information and telecommunications technology, professional 
training programs and executive seminars. Responsibilities included: 
market assessment, program planning, course development and scheduling 
(over 800 sections and 120 faculty per year), assistance for over 1100 
students, budget management, marketing and strategic planning for 
academic technology needs.
Major accomplishments:

        --  Designed and implemented innovative graduate technology 
        degree (MS/Information & Telecommunication Systems); 
        undergraduate information systems program; credit certificate 
        education, entrepreneur training and executive education 
        programs,

        --  Redesign of graduate technology management (MS/Business-
        Management of Technology), and professional education programs, 
        and

        --  Finalist for innovative technology impact award in 
        Baltimore.

Director, SCS Operations, Montgomery County Center (Nov. 1987 to Aug. 
                    1990)

Key Responsibilities:
    Managed the start-up and operation of the School of Continuing 
Studies (SCS) remote-campus facilities at the Johns Hopkins University, 
Montgomery County Center. Responsibilities included: planning and 
implementation of SCS operations (for multiple departments), marketing 
(evaluation, planning and implementation), public presentations, 
promoted the School and University with county business, education and 
government. Simultaneously directed graduate business degree 
concentration in Information Technology Management.
Major accomplishments:

        --  Started school's most successful off-campus education 
        facility

        --  Managed growth rate of over 125 percent per year for each 
        of first three years

        --  Established educational presence in the county and 
        developed links with business

The International Bank for Reconstruction and Development (The World 
        Bank), Washington, DC (Jan. 1984 to Oct. 1987)

Systems and Facilities Manager

Key Responsibilities:
    Managed the administrative and investment trading systems and 
facilities for the Investment Department of the World Bank (a $20 
billion investment operation). Responsibilities included: planning and 
implementation of new information and telecommunication (voice and 
data) systems, investment facilities and offices; budget management; 
managing vendor contracts (exceeding $1.5m); system security; strategic 
technology planning, disaster recovery planning and management; 
mainframe systems oversight.
Major accomplishments:

        --  Planned and managed the construction of a new $2m 
        securities trading facility,

        --  Planned, contracted and implemented a new $1m mainframe 
        computer system,

        --  Negotiated and managed $3.5m software implementation 
        contracts, and

        --  Implemented new office automation technology for department 
        of 40 professionals, in multiple locations.

Coopers and Lybrand, Washington, DC (Sept. 1979 to Jan. 1984)

Senior Management Consultant

Key Responsibilities:
    Managed and conducted various consulting engagements for the 
Washington, D.C. office of the Management Consulting Services group. 
These engagements were for a variety of Federal and State Government 
agencies, and private organizations.
Projects included:
    A security review of the U.S. House of Representatives' 
computerized Financial Management System; designed and implemented an 
economic modeling system for the U.S. Department of the Treasury; 
redesigned the automated central personnel database for the Department 
of the Navy; managed several engagements to implement, enhance and 
maintain financial portfolio management software for several state 
housing agencies, including: Nebraska, New Hampshire, Oregon and South 
Carolina.

MRI Systems Corporation, Washington, DC (April 1978 to Sept. 1979)

Project Manager

Key Responsibilities:
    Managed consulting services contracts for various U.S. government 
agencies. These were primarily for the development and implementation 
of management information systems using the SYSTEM 2000 Data Base 
Management software. Major projects included systems for: Harry Diamond 
Laboratories (DOD), Mobile Equipment Research and Development Command, 
the Defense Mapping Agency, and the Department of Agriculture.

Lockheed Electronics Corporation, Houston, TX (Sept. 1977 to March 
        1978)

Project Leader

Key Responsibilities:
    Project leader for a Space Shuttle information system support 
team--monitored the implementation of operating system enhancements, 
and implementation, support and modification of all commercial software 
packages. In addition, the team was responsible for analyzing existing 
hardware and software utilization and developing new requirements for 
the Control Data Corporation computer data center at the NASA Space 
Center in Houston, Texas.

Commercial Credit Corporation, Baltimore, MD (Nov. 1971 to Aug. 1977)
Key Responsibilities:
    Held a variety of positions, including: Operations Manager, Data 
Base Manager, Project Leader, Systems Analyst and Programmer. Major 
duties included: managing department responsible for the daily 
operation of an on-line, real-time loan processing system with over 
1,000 terminals in 800 offices nationwide; lead team responsible for 
the control and recovery of a large on-line, real-time financial data 
base; developed and implemented on-line applications processing system; 
supervised the programming and design teams which were responsible for 
user interface, design, programming, testing and implementation of new 
applications; assisted in the design, programming and implementation of 
an on-line financial application system processing for over 1 million 
customers nationwide.

Federal Reserve Bank of Richmond (Baltimore Branch), Baltimore, MD 
        (July 1969 to Nov. 1971)

Senior Systems Operator

Key Responsibilities:
    Progressed from operator trainee to senior operator in mainframe 
IBM systems center. Major duties included: operator for an IBM 360 
mainframe, monitoring the quantity and quality of work processed during 
the shift by junior level operators.

ADDITIONAL QUALIFICATIONS

Johns Hopkins University, School of Continuing Studies, Baltimore, MD 
        (Sept. 1983 to Nov. 1987)

Part-time Faculty

Position summary:
    Part-time faculty position assisting in development and teaching in 
technology program. Planned, designed and conducted beginning and 
advanced technology courses for students in the graduate Business 
degree, Economic Education program, graduate Information Systems and 
Telecommunications degree undergraduate Information Systems degree, and 
professional development training programs. Topics included: I.S. 
Management, Strategic Planning for I.S., Advanced Topics in I.S., 
Applied Graduate Project, Project Management, Business Applications of 
Computers, Systems Analysis and Design, Business Planning, and 
beginning through advanced training in: Novell Office Suite, Microsoft 
Office Suite, Lotus-123, Windows, Internet and World-Wide-Web. Also, 
continue to assist with curriculum design and development for credit 
programs.

University of Maryland, University College, College Park, MD (Sept. 
        1995 to May 1998)

Part-time Instructor

University of Maryland, School of Business, College Park, MD (1996-
        1997)

Part-time Instructor

EDUCATION

Master's degree in Administrative Science (May 1984), Johns Hopkins 
        University, Baltimore, MD.

Bachelor's degree in Computer Science (May 1975), Loyola College, 
        Baltimore, MD.

Honors: Dean's List, graduation honors

PRESENTATIONS & PAPERS

Baker, John, Cyber Security Education: Issues & Approaches, Federal 
        Information Systems Security Educators Association conference, 
        March 10, 2004, College Park, MD
Baker, John, Undergraduate Security Programs, Infragard seminar, March 
        2, 2004, Johns Hopkins Applied Physics Lab, Laurel, MD.
Baker, John, Developing Cyber Security Education Programs, Society for 
        Advanced Learning Technologies conference, Feb. 18, 2004, 
        Orlando, FL.
Baker, John, Ensuring Cyber Security, Security Education Programs, 
        CyberWatch Security Industry Group conference, Nov. 21, 2003, 
        Greenbelt, MD.
Baker, John, Information Literacy, Society for Advanced Learning 
        Technologies conference, July 27, 2001, College Park, MD.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

    Chairman Boehlert. Thank you very much.
    Mr. Spengler.

  STATEMENT OF MR. ERICH J. SPENGLER, PRINCIPAL INVESTIGATOR, 
     ADVANCED TECHNOLOGY EDUCATION REGIONAL CENTER FOR THE 
  ADVANCEMENT OF SYSTEMS SECURITY AND INFORMATION ASSURANCE, 
                MORAINE VALLEY COMMUNITY COLLEGE

    Mr. Spengler. Good morning, Mr. Chairman and Members of the 
Committee. I would like to thank the Committee for the 
opportunity to comment on the role of community colleges in 
cyber security education.
    Over the next few minutes, I will discuss how community 
colleges address the challenges in cyber security education and 
the ability of community colleges to focus on the practitioner 
skills necessary to adapt to the rapid changes in technology in 
the workplace.
    Community colleges play a critical role in the education 
and training of our Nation's workforce. With an enrollment of 
5.4 million credit students and five million non-credit 
students, these institutions train and educate 44 percent of 
our Nation's undergraduate students. A strength of community 
colleges is its flexibility of the curriculum, which is often 
designed specifically to train practitioners. This flexibility 
enables community colleges to respond quickly to changes in 
technology and the needs of business and industry. Community 
colleges facilitate career pathways from high schools to 2-year 
career programs and then additional pathways to 4-year colleges 
or universities. In addition, community colleges leverage the 
use of well-qualified adjunct and career faculty and also play 
a crucial role in the re-education and updating of the skills 
of current workers.
    The NSF ATE Regional Center for Systems Security and 
Information Assurance and its partners recently conducted a 
survey of companies in five mid-western states to determine the 
job demand for IT security-related positions, desired skills, 
and preferred educational levels. A total of 340 responses were 
received. Respondents were divided into small, medium, and 
large companies. Ninety-nine percent of the respondents were 
concerned about Internet and computer security. Almost 3/4 of 
respondents said their company currently employed people in IT 
security positions. Slightly more than half said there was a 
shortage in the current supply of qualified applicants for 
entry-level IT security positions.
    There are significant opportunities for individuals who 
possess an Associate's degree, therefore, community colleges 
must continue to respond to growing industry demands for 
professionals possessing cyber security skills. Opportunity 
exists for Associate's degree graduates but also college 
pathways are important for those continuing education and 
careers.
    Current strengths of community college cyber security 
programs include the utilization of the National Science 
Foundation ATE centers and resources. In addition, 
opportunities exist for community college faculty to 
participate in cyber security initiatives and information 
sharing with sponsored task groups, such as the FBI's InfraGard 
and the United States Secret Service Electronic Crimes Task 
Force.
    Community colleges are also challenged to integrate 
security-related course work into existing IT programs and 
degrees. The greatest challenge facing community colleges and 
their efforts to establish cyber security programs is faculty 
recruitment and development. The NSF ATE program currently 
provides vital resources for faculty development to enrich 
cyber security programs. For example, during the summer of 
2004, the NSF ATE Regional Center for Systems Security and 
Information Assurance trained over 200 college faculty in 
security awareness, information assurance, network security, 
and wireless technologies.
    Community colleges must also expand relationships with 
business and industry to develop innovative funding 
opportunities and partnerships. Partnering with national 
program models, such as the Cisco Systems Networking Academy, 
allows for greater implementation and consistency of 
curriculum.
    The Center for System Security and Information Assurance is 
the first NSF ATE Regional Center for IT security. The center 
includes seven partner institutions representing five Midwest 
states. This center was established to address the needs for IT 
security professionals by increasing faculty expertise and 
higher education training programs in IT security and 
information assurance. This center collects, categorizes, 
adapts, enhances, standardizes, and evaluates curriculum and 
other training programs for community colleges and university 
faculty in students across the Midwest. The center partners 
with business and industry and local and federal agencies for 
program development.
    To improve cyber security education and build the Nation's 
technical workforce, the Federal Government must continue to 
invest in the programs and the people that are making a 
difference in the education and training of our cyber security 
workforce. Without the support for programs such as the NSF 
Advanced Technological Education program, many institutions 
would not have the resources or faculty expertise to meet the 
challenges required to build quality cyber security programs.
    This concludes my statement, Mr. Chairman and Members of 
the Committee. Thank you for allowing me to address the 
Committee on this issue.
    [The prepared statement of Mr. Spengler follows:]
                Prepared Statement of Erich J. Spengler
    Good morning, Mr. Chairman and Members of the Committee. I would 
like to thank the Committee for the opportunity to comment on the role 
of community colleges in cyber security education. My name is Erich 
Spengler, and I am the Director and Principal Investigator for the 
National Science Foundation's ATE Regional Center for Systems Security 
and Information Assurance (CSSIA). I come to you with 16 years of 
combined experience in the classroom and the IT Industry. I am 
currently an Associate Professor in Computer Integrated Technology at 
Moraine Valley Community College in Palos Hills, Illinois.

<bullet>  What roles do community colleges play in the training of new 
workers and the retraining of current workers? What employment 
opportunities in cyber security are available for individuals with a 
certificate or a two-year degree?

Role of Community Colleges
    Community colleges play a critical role in the education and 
training the Nation's workforce. Some 1,173 community and technical 
colleges enroll 44 percent of all U.S. undergraduate students. The 
American Association of Community Colleges (AACC) notes that 200,000 
certificates and 450,000 associate's degrees are granted each year. 
With an enrollment of 5.4 million credit students and five million non-
credit students, these institutions train and educate a significant 
percentage of the workforce.
    One of the strengths of community colleges is the close 
relationship they maintain with local business and industry. This 
relationship may take many forms. For example, community college 
faculty are often asked to develop and deliver customized training 
solutions for business partners. Business partners play an important 
role in shaping career and technical programs by their participation as 
members of advisory committees. Another strength is the flexibility of 
the community college curriculum, which is often designed specifically 
to train practitioners. This flexibility enables community colleges to 
respond quickly to changes in technology. Community colleges also 
establish career pathways from high schools to two-year career programs 
and then additional pathways to four-year colleges or universities. 
This articulation of curriculum allows students to seamlessly continue 
higher levels of professional studies and education close to home.
Employment Opportunities
    The NSF ATE Regional Center for Systems Security and Information 
Assurance (CSSIA) and its partners recently conducted a survey (http://
www.cssia.org) of companies in five mid-western states to determine the 
job demand for IT security-related positions, desired skills, and 
preferred educational levels. I would like to share some of those 
results at this time.

        <bullet>  A total of 340 responses were received. Respondents 
        were divided into small (less than 100 employees), medium (100-
        499) and large (500 or more) companies.

        <bullet>  An overwhelming 99 percent of respondents were 
        concerned about Internet and computer security.

        <bullet>  Almost three-fourths of respondents said their 
        company currently employed people in IT security positions.

        <bullet>  IT security positions were more likely to be part-
        time or shared positions (part-time security along with other 
        IT duties) than dedicated (full-time IT security).
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <bullet>  Security responsibilities are being added to most IT 
        professions, including network administrators, help desk 
        specialists, network engineers, application developers, and 
        systems analysts.

        <bullet>  Slightly more than half said there was a shortage in 
        the current supply of qualified applicants for entry-level IT 
        security positions.

        <bullet>  Large companies were more likely to be concerned 
        about Internet and computer security and to have dedicated 
        security positions.

        <bullet>  The most popular types of security training were 
        self-study, commercial vendor training sites, and community 
        college programs.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <bullet>  There are significant opportunities for individuals 
        who possess an Associate's degree.

        <bullet>  Respondents indicated a significant number of current 
        open IT security positions and projected even more openings 
        over the next three years.

    Community colleges must continue to respond to growing industry 
demands for professionals possessing cyber security skills. Although it 
is clear that there are career opportunities for professionals holding 
Associate's degrees, we must continue to develop pathways with four-
year colleges and universities allowing those professionals to attain a 
higher level of education.

<bullet>  What are the current strengths and weaknesses of cyber 
security education and training programs? What ``model'' courses and 
programs currently exist? And what types of courses or programs need to 
be developed or more broadly implemented?

Current strengths and weaknesses of cyber security education and 
        training programs
    Current strengths of cyber security education include the 
utilization of NSF ATE centers as resources for faculty development, 
internship programs and processes, dissemination and implementation of 
curriculum models, collaboration, and partnerships among academic 
institutions and business and industry. In addition, opportunities 
exist for community college faculty to participate in cyber security 
initiatives and information sharing with government-sponsored groups 
such as the FBI's InfraGard and the United States Secret Service 
Electronic Crimes Task Force.
    However, much of the current cyber security curriculum typically 
focuses on networking-related technologies. There is a need to expand 
the emphasis beyond networking to serve the greater spectrum of IT 
curriculum. Specialties might included forensics, programming and 
secure coding, information assurance, and e-commerce and secure 
communications.
    Community colleges are also challenged to integrate security-
related coursework into existing IT programs and degrees. Three career 
areas must be addressed: (1) the focused cyber security practitioner 
specializing in their field of study, (2) the IT professional not 
dedicated to security but who is charged with the protection of 
critical information and infrastructure, and (3) non-IT-related 
professionals such as health care personnel.
Model courses and programs
    As cyber security technology emerges so must the programs within 
the community colleges. There is debate regarding modeling of 
curriculum on industry certification. This debate centers on the 
delicate balance between certification preparation and required skill 
sets. Certifications provide a reasonable direction and solid 
groundwork representing industry needs. However, barriers exist for 
standardized academic models that reflect the skills defined by these 
industry certifications: (1) security-related industry certifications 
continue to proliferate, making it difficult to identify which 
certifications would provide the best models, and (2) skills outlined 
in industry certification often require costly effort to be implemented 
into an academic framework.
    Community colleges have identified four approaches to developing 
and offering courses and programs: (1) four-semester programs of study 
leading to Associate's degrees, (2) two-semester programs leading to 
institution-conferred certificates, (3) credit courses that are part of 
an existing program of study, and (4) non-credit programs of 
preparation for industry certification.
    The NSF ATE Regional Center for Systems Security and Information 
Assurance (CSSIA) is developing an adoptable model that reflects both 
industry certifications and practitioners' required skills. The CSSIA 
center is working within each of the partner states to establish model 
four-semester and certificate programs that reflect current and 
relevant industry certifications and skills.
Development of programs
    Collaboration among community colleges to reduce duplication of 
efforts is still needed. The establishment of cyber security programs 
can be expensive and require a prolonged development cycle. 
Additionally, we should consider the importance of the adaptation and 
dissemination of instructional materials and best practices. As an 
example, to help reduce implementation costs of quality learning 
environments, the NSF ATE CSSIA center developed an innovative use of 
laboratory equipment through remote access and management. 
Additionally, partnering with national program models, such as the 
Cisco Systems Networking Academy, allows for greater implementation and 
consistency of curriculum.

<bullet>  What are the challenges you face in recruiting and training 
cyber security faculty? What type of programs or opportunities do you 
provide to help keep faculty current?

Challenges in recruiting and training cyber security faculty
    The greatest challenge facing community colleges and their efforts 
to establish cyber security programs is faculty recruitment and 
development. Community colleges must try to compete with business and 
industry for skilled practitioners. An additional challenge occurs when 
individuals interested in becoming faculty members possess the 
necessary technological skills, but lack teaching experience.
Programs or opportunities to help keep faculty current
    In 2002, the American Association of Community Colleges (AACC) 
sponsored the AACC/NSF Cyber Security Workshop. The workshop served as 
a catalyst for community college professionals interested in cyber 
security by identifying workforce and curricular needs and by 
establishing a forum for collaboration among community colleges.
    The NSF ATE program has provided vital resources to a number of 
community colleges in an effort to establish cyber security programs. 
These projects allocate a significant portion of the funding for 
faculty development. The funds can be used in activities such as 
product training, professional externship opportunities, and graduate-
level courses and workshops.
    During the summer of 2004, the NSF ATE Regional Center for Systems 
Security and Information Assurance (CSSIA) trained over 200 college 
faculty in Security Awareness, Information Assurance, Network Security, 
and Wireless technologies. CSSIA will continue to provide training 
opportunities in new and emerging skills for faculty in subsequent 
years.
    It is clearly our belief that without these training programs, the 
cyber security initiatives available to attending faculty would not 
move forward to meet growing industry practitioner demands. Another 
model designed to keep faculty current in emerging IT skills is the 
Working Connections Faculty Development Institute. Working Connections 
is co-sponsored by the NSF ATE National Workforce Center for Emerging 
Technologies (NWCET), AACC and Microsoft Corporation to develop 
professional skills of faculty in several regions throughout the U.S.

<bullet>  What can the Federal Government do to improve cyber security 
education and build the Nation's technical workforce?

    First, the Federal Government can encourage government agencies to 
provide to community colleges their job descriptions and titles that 
are appropriate for cyber security graduates of two-year community and 
technical college programs.
    Next, to improve cyber security education and build the Nation's 
technical workforce, the Federal Government must continue to invest in 
the programs and people that are making a difference in the education 
and training of our cyber security workforce. Without the support from 
programs such as the NSF Advanced Technological Education (ATE) 
Program, many institutions would not have the resources or faculty 
expertise to meet the challenges required to build quality cyber 
security programs.
    This concludes my statement Mr. Chairman and Members of the 
Committee. Thank you for allowing me to address the Committee on this 
issue.

                    Biography for Erich J. Spengler

Director/PI--CSSIA, NSF Regional Center for Systems Security and 
        Information Assurance

    Erich Spengler holds a Master's degree from Loyola University and 
has been a full-time faculty member at Moraine Valley Community College 
for the past nine years. Mr. Spengler also has an extensive background 
in information technology, security and information assurance. He holds 
several major industry certifications, including CISSP, MCSE and CCNP. 
Additionally, he has a broad background in network design and 
infrastructure implementation.
    Mr. Spengler currently serves as the Director and Principle 
Investigator for the National Science Foundation (NSF) ATE Regional 
Center for Systems Security and Information Assurance (CSSIA). This 
regional center serves a five-state area of the Midwest and focuses on 
a field which is critical to homeland security and which has a large 
demand for qualified workers. The center is collecting, adapting, and 
enhancing curricula in cyber security, modeling certificate and degree 
programs, and providing professional development for college faculty in 
the region.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Boehlert. Thank you, Mr. Spengler. And I can't 
help but observe that 22 years ago, when I was a freshman 
sitting down on the first row at the very end, community 
colleges weren't even on the radar screen of the National 
Science Foundation. And since then, I have worked very hard, 
joined by colleagues, Republicans and Democrats alike, to make 
certain the great opportunities presented by community colleges 
have been recognized by the National Science Foundation. And 
so, in the late '80's was born the ATE program, the Advanced 
Technological Education program. And now, NSF recognizes what 
you know very well, that the community colleges are very 
important in the educational process of America. So thank you 
for what you are doing so much.
    Lieutenant Aparicio.

STATEMENT OF SECOND LIEUTENANT DAVID J. APARICIO, DEVELOPMENTAL 
    ELECTRICAL ENGINEER, INFORMATION DIRECTORATE, AIR FORCE 
                      RESEARCH LABORATORY

    Second Lieutenant Aparicio. Yes, sir.
    Mr. Chairman, Congressman Gordon, Members of the Committee, 
and staff, I very much appreciate the opportunity to provide 
testimony in my personal capacity on cyber security education, 
in particular my experience in the Advanced Course in 
Engineering on Cyber Security.
    And as an introduction on the National Strategy to Secure 
Cyberspace, President George W. Bush wrote that ``securing 
cyberspace is an extraordinarily difficult strategic challenge 
that requires coordinated and focused effort from our entire 
society'' and ``the cornerstone of America's cyberspace 
security strategy is a public-private partnership.''
    Last summer, I had the distinct privilege in participating 
in the Advanced Course in Engineering, or ACE, on Cyber 
Security at the Air Force Research Laboratory Information 
Directorate in Rome, New York. The program immersed me in 10 
grueling weeks of research, problem solving, and report writing 
on a variety of cyber security issues. I completed all 
requirements to call myself an ACE graduate and earned the 
distinction of Class Valedictorian. I gained far more than just 
a certificate of completion. I gained a mastery of the issues 
on cyber security, which challenge our Nation today and shape 
our future.
    ACE uses a unique approach toward running the program. Once 
a week, students are immersed in a one-day lecture covering a 
specific area in cyber security, concluding with an assignment 
of a real-world problem. Students must solve the problem, write 
a report detailing their solution. For the rest of the week, 
students work with their personal mentors on military and 
industry projects with the Rome Research Site. This unique 
combination of high-intensity instruction and military and 
industry projects creates an environment that develops cyber 
security leadership and situational awareness vital for our 
future. ACE taught me not only technical confidence but mental 
flexibility to solve any problem placed in front of me, 
academic or critical.
    I proceeded with great enthusiasm and duty because cyber 
security is a gravely serious business. ACE introduced me to 
many of the challenges of cyber security. Responding to the 
challenges, I requested to return to the Air Force Research 
Laboratory Information Directorate to contribute to the defense 
of our Nation through cyber security awareness. With my new 
view on the world, I plan to eventually work for the Central 
Intelligence Agency or the National Security Agency.
    The Advance Course in Engineering on Cyber Security 
addresses the challenge of the National Strategy to Secure 
Cyberspace by developing the top students in pre-commissioning 
officer training programs into the next generation of cyber 
security leaders. Through public and private partnerships among 
the Air Force Research Laboratory Information Directorate, 
Syracuse University, the Computer Applications and Software 
Engineering Center of the New York State Office of Science, 
Technology, and Academic Research, the Griffiss Institute on 
Information Assurance, and several corporations, the ACE 
follows the proven model of the General Electric Edison course 
to transform engineers into original thinkers, problem solvers, 
and technical leaders.
    Far from creating another computer security training 
program, the ACE seeks to develop cyber security leaders 
through intensive, formal education, teamwork, problem solving, 
mentoring, and immersion into a work environment. Gene Kranz 
best described his mindset of an engineering leader in his book 
``Failure Is Not an Option: Mission Control from Mercury to 
Apollo 13 and Beyond.'' As director of the National Aeronautics 
and Space Administration's mission control in the Apollo era, 
Kranz led his engineers into uncharted territory, the moon, and 
established our unchallenged leadership of space.
    Cyberspace in the 21st century is no less challenging than 
outer space in the 20th century. Besides, the security of our 
Nation relies on establishing and maintaining unchallenged 
leadership in cyberspace.
    In two years at the Rome Research Site, ACE has attracted 
students from 25 colleges in 17 states. In addition to Reserve 
Officers' Training Corps, or ROTC, the students include 
National Science Foundation fellows, Junior ROTC cadets, and 
civilian scientists and engineers committed to careers in cyber 
security. Educators include faculty from Syracuse University, 
the U.S. Military Academy at West Point, and the State 
University of New York, in addition to domain experts from the 
Air Force Research Laboratory and industry.
    The Federal Government can help cyber security education in 
two ways. First, the government could increase efforts to 
recruit younger generations, namely middle school and high 
school students. ACE currently reaches to junior ROTC programs 
to train college-bound students in cyber security. Secondly, 
the government should consider increasing its cyber security 
education through public service announcements. Just as the 
government shows anti-drug campaign videos on television, basic 
cyber security videos should be a staple of the American 
television.
    Mr. Chairman, Members of the Committee, and staff, thank 
you again for this opportunity to present testimony and thank 
you for your continuing support of the Air Force cyber security 
education efforts.
    [The prepared statement of Second Lieutenant Aparicio 
follows:]
       Prepared Statement of Second Lieutenant David J. Aparicio
    Mr. Chairman, Members of the Committee, and Staff, I very much 
appreciate the opportunity to provide testimony in my personal capacity 
on cyber security education and, in particular, my experience in the 
Advanced Course in Engineering (ACE) on Cyber Security. In his 
introduction of The National Strategy to Secure Cyberspace, President 
George W. Bush wrote that ``securing cyberspace is an extraordinarily 
difficult strategic challenge that requires coordinated and focused 
effort from our entire society'' and that ``the cornerstone of 
America's cyberspace security strategy is a public-private 
partnership.''
    Last summer, I had the distinct privilege of participating in the 
Advanced Course in Engineering (ACE) on Cyber Security at the Air Force 
Research Laboratory Information Directorate in Rome, New York. The 
program immersed me into ten grueling weeks of research, problem 
solving, and report writing on a variety of cyber security issues. I 
completed all requirements to call myself an ACE graduate and I earned 
the distinction of Class Valedictorian. I gained far more than just a 
certificate of completion. I gained a mastery of the issues of cyber 
security, which challenge our nation today and shape our future.
    ACE uses a unique approach towards running the program. Once a 
week, students are immersed into one-day lecture covering a specific 
area in cyber security, concluding with the assignment of a real-world 
problem. The students must solve the problem and write a report 
detailing their solution. For the rest of each week, students work with 
personal mentors on military and industry projects within the Rome 
Research Site. This unique combination of high-intensity instruction 
and military and industry projects creates an environment that develops 
cyber security leadership and situational awareness vital to our 
future. ACE taught me not only technical competence, but mental 
flexibility to solve any problem placed in front of me--academic or 
critical.
    I proceeded with great enthusiasm and duty because cyber security 
is a gravely serious business. ACE introduced me to many of the 
challenges of cyber security. Responding to the challenge, I requested 
to return to the Air Force Research Laboratory Information Directorate 
to contribute to the defense of our nation through cyber security 
awareness. I plan to eventually work for the Central Intelligence 
Agency or the National Security Agency with my new view of the world.
    Many of my fellow ACE graduates received commissions where they put 
to good use their increased command of cyber security and their 
appreciation of its impact of national security.

ACE BACKGROUND

    The Advanced Course in Engineering (ACE) on Cyber Security 
addresses the challenge of The National Strategy to Secure Cyberspace 
by developing the top students in pre-commissioning officers training 
programs into the next generation of cyber security leaders. Through a 
public-private partnership among the Air Force Research Laboratory 
Information Directorate, Syracuse University, the Computer Applications 
and Software Engineering (CASE) Center of the New York State Office of 
Science, Technology, and Academic Research, the Griffiss Institute on 
Information Assurance, and several corporations, the ACE follows the 
proven model of the General Electric Edison course to transform 
engineers into original thinkers, problem solvers, and technical 
leaders.
    Far from creating another computer security training program, the 
ACE seeks to develop cyber security leaders by drawing from the top 
students in Air Force, Army, and Navy pre-commissioning training 
programs, in addition to the best among our civilian college students. 
The pedagogical philosophy underlying the ACE seeks to develop 
leadership skills through intensive formal education, teamwork, problem 
solving, mentoring, and immersion in a work environment.
    The ACE philosophy is best summarized in the following paradigm: 
faced with a real-world problem, the graduates of the ACE learn to:

        1.  formulate a clear problem statement,

        2.  make reasonable assumptions,

        3.  apply sound analytical techniques and engineering tools,

        4.  solve the problem to a certain depth,

        5.  perform risk analysis on the solution, and

        6.  deliver a solution on time through effective communication 
        means.

    Gene Kranz best described this mindset of an engineering leader in 
his book ``Failure Is Not an Option: Mission Control from Mercury to 
Apollo 13 and Beyond.'' As director of the National Aeronautical and 
Space Administration's mission control in the Apollo era, Kranz led his 
engineers into uncharted territory--the Moon--and established our 
unchallenged leadership of space.
    Cyberspace in the twenty-first century is no less challenging than 
outer space in the twentieth century. Besides, the security of our 
nation relies on establishing and maintaining unchallenged leadership 
in cyberspace.
    In its second year at the Rome Research Site, the ACE has attracted 
26 students from 25 colleges in 17 states. In addition to Reserve 
Officers' Training Corps (ROTC), the students include fellowship 
recipients from the National Science Foundation Scholarship for Service 
Cyber Corps program, cadets from the Air Force Junior ROTC, and 
civilian scientists and engineers committed to careers in cyber 
security.
    The educators include faculty from Syracuse University, the United 
States Military Academy at West Point, and the State University of New 
York, in addition to domain experts from the Air Force Research 
Laboratory and industry.
    Besides attending formal classes and solving real-world problems, 
the students spend about three days each week working under the 
tutelage of a mentor. The mentors include active duty and retired 
officers at the Air National Guard North East Air Defense Sector, the 
Air Force Research Laboratory, and several local companies.
    The duration of the ACE is ten weeks during the June-August 
timeframe. Each week focuses on one area of cyber security as detailed 
below:

         1.  Legal Issues: Internet laws and cyber crime; the Fourth 
        Amendment of the United States Constitution; search and seizure 
        of data; rights and privacy issues; government versus private 
        workplace; search warrants and wiretap laws; and the Patriot 
        Act.

         2.  Security Policies: Establishing and implementing security 
        policies; confidentiality, integrity, and availability 
        considerations; identifying vulnerabilities and threats; and 
        establishing disaster response and recovery procedures.

         3.  Cryptography: Mathematical basis for data encryption; 
        substitution ciphers and the Data Encryption Standard; private-
        key and public-key cryptography; key distribution and trusted 
        authority; and digital signatures.

         4.  Computer Security: Operating systems and file system 
        security; passwords and one-way hashes; user-space 
        administration; archiving and back-up strategy; intrusion 
        detection; and disaster response and recovery.

         5.  Digital Forensics: Procuring and analyzing digital 
        evidence; preserving the chain of custody of digital evidence; 
        recovering hidden data on hard drives; classifying file 
        systems; analyzing slack and sector data; and recovering lost 
        clusters.

         6.  Network Security: Internet protocol format and 
        vulnerabilities; protocol and implementation flaws; buffer 
        overflow; denial-of-service attacks; distributed attacks; e-
        mail; domain name system; and web servers.

         7.  Network Defense: Host and network security; firewalls and 
        periphery intrusion detection systems; bastion hosts; network 
        monitors and traffic analyzers; network logfiles; detecting 
        anomalous behavior; and network recovery.

         8.  Network Attack: Port scanners and packet sniffers; IP 
        spoofing; identifying vulnerabilities; designing and 
        implementing network attacks; engineering malicious code; worms 
        and viruses; and offensive cyber warfare.

         9.  Steganography: Data hiding in images; classifying 
        steganography algorithms and tools; categorizing vessel 
        capacity; detection and recovery of hidden data; digital 
        watermarking; streaming media steganography; and multi-lingual 
        steganography.

        10.  Next Generation Cyber Security: Wireless local area 
        networks; wireless encryption protocols; Next Generation 
        Internet Protocols; embedded systems; and third generation (3G) 
        cell phones and personal data assistants.

    For each topic, the instructor in charge assigns a substantial 
real-world problem that requires 40 to 80 hours of teamwork to solve. 
Students work on teams of three to solve each problem, then write and 
submit individual reports.

RECOMMENDATIONS

    The Federal Government can help cyber security in two ways. First, 
the government could increase efforts to recruit the younger 
generations--namely middle and high school students. ACE currently 
reaches out to junior ROTC programs to train college-bound students in 
cyber security. Secondly, the government should consider increasing its 
cyber security awareness through public service announcements. Just as 
the government shows anti-drug campaign videos on television, basic 
cyber security videos should be a staple of American television.

           Biography for Second Lieutenant David J. Aparicio
    2Lt David Aparicio is a developmental electrical engineer for the 
Air Force Research Laboratory Information Directorate in Rome, New 
York. He supports research and development of tools for multi-sensor 
exploitation and communications intelligence. Lt. Aparicio was born in 
Portland, Oregon, but calls Sugar Land, Texas, his native home. He 
earned his Bachelor of Science degree in electrical and computer 
engineering at Baylor University and received his commission as a Blue 
Chip graduate of Baylor's ROTC program in 2003. Lt. Aparicio was also a 
graduate and the valedictorian of the Advanced Course in Engineer on 
Cyber Security in 2003. In his free time, Lt. Aparicio enjoys 
photography, writing, and playing soccer.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Boehlert. Thank you very much, Lieutenant, and 
thank you for calling me ``sir.'' I was a Specialist 3rd Class, 
and so when an officer calls me ``sir,'' it sort of puffs me up 
a little bit.
    How many were in your class?
    Second Lieutenant Aparicio. My class? There were 14.
    Chairman Boehlert. And I think this year's boot camp has 
28, double the number, something like that.
    Second Lieutenant Aparicio. I will have to get back to you 
on the exact number.
    Chairman Boehlert. Well, the doctor is right behind you 
nodding his head yes, so I have the privilege of addressing 
him. It is exciting to think about your future.
    Second Lieutenant Aparicio. Thank you.
    Chairman Boehlert. Ms. Rogers.

    STATEMENT OF MS. SYDNEY ROGERS, PRINCIPAL INVESTIGATOR, 
 ADVANCED TECHNOLOGY EDUCATION REGIONAL CENTER FOR INFORMATION 
         TECHNOLOGY, NASHVILLE STATE COMMUNITY COLLEGE

    Ms. Rogers. Good morning, Mr. Chairman, and Representative 
Gordon, and Members of the Committee.
    [Slide.]
    Today we examine the challenge of educating skilled workers 
within the context of a world that is vastly different from the 
world when I began my career 30 years ago. My colleagues and I 
believe it is important to understand this new context in order 
to adequately understand what is needed to design and implement 
education programs that will develop a world-class competitive 
workforce with respect to cyber security.
    [Slide.]
    The context of today's educational programs involves new 
and constantly evolving technologies that are dramatically 
changing every aspect of our society. New threats, such as 
terrorism and identity theft, pose even greater security 
challenges while the distributed nature of systems and data 
storage complicates the control of security exponentially.
    [Slide.]
    Our response from a technical perspective has been to 
mitigate these exposures as much as possible through 
techniques, such as patches and virus protection software, and 
then reduce the exposure to risk with technologies like 
firewall protection and encryption. As a result, we find 
ourselves addressing the symptoms and not the real problem: 
systems designed and built without consideration of security. 
Technicians work on individual problems without an overall 
context. One Chief Network Officer in Nashville explains it 
this way: ``We are fixing the symptoms because we are dealing 
with legacy systems and our only solution is to fix the 
symptom.''
    [Slide.]
    Education's response today is to focus technician education 
on training for specific technical skills through certification 
programs, expansion of course content, addition of new courses, 
new concentrations, and new two- and four-year degrees, and 
this slide shows in the background some of the programs we are 
doing at my college and others in Tennessee.
    [Slide.]
    All of these approaches are necessary in order to protect 
today's systems, but how do we educate for tomorrow's cyber 
risk? How do we build a workforce that will know how to use 
what they know in context and that will have the skills 
necessary to understand constantly changing technologies and 
what is needed to both use them and protect them?
    [Slide.]
    Our industry partners in Tennessee tell us, as depicted 
here, cyber security professionals, who require the most 
extensive technical knowledge, also represent a relatively 
small number of workers who need specific highly technical 
cyber security skills. To be sure, all information technology 
professionals must possess technical skills necessary to 
develop and maintain secure systems. Our employers tell us that 
all workers need some understanding of cyber security and some 
level of expertise in these skills. Even though community 
colleges and our NSF work at my center touch all three of these 
areas, our ATE focuses on the preparation of IT professionals.
    [Slide.]
    To meet today's need and, at the same time, build a 
workforce that meets tomorrow's needs, we must move beyond 
traditional curriculum development methods that focus on silos 
of content with little context. That is not the first time--you 
have already heard that today. We need to develop teaching and 
learning methods that foster learning, thinking, and problem 
solving in the context of the real world.
    [Slide.]
    We have developed model programs for bringing these 
workplace experiences directly to the students and creating 
more adaptable workers. Our contextual and problem-based 
methods all share some common characteristics. First, they are 
all based on authentic workplace problems. To bring these 
authentic workplace problems into the classroom requires a 
close and consistent working relationship with our business and 
industry partners. Just as technology in the workplace is 
changing constantly, these authentic experiences must also 
change. By implementing these experiences for students, we are 
also building a curriculum that adapts and changes with 
changing technology and situations. Using these methods, then, 
we can create an educational system that builds a closer link 
between the content taught and the actual workplace application 
while also developing workers who are more able to adapt the 
knowledge they have to a rapidly changing world. Finally, to 
effectively teach using these methods, faculty must learn to 
function as highly skilled facilitators who guide students to 
discover and understand the appropriate scientific and 
technical knowledge.
    [Slide.]
    In Tennessee, the NSF/ATE projects have helped to develop a 
strong foundation for re-educating current workers and building 
programs for the future. For instance, we have just initiated a 
program with the Tennessee Telecommunications Association to 
re-educate some of their workers. Our faculty would not have 
the skills and knowledge necessary to do this program properly 
if we had not had the funding from the ATE program to provide 
faculty development opportunities for them.
    As for the future workforce in IT, we have piloted an 
exciting program that brings real-time industry technical 
problems directly to the classroom to be solved by students by 
partnering industry technicians with faculty at the community 
colleges and universities. Last year, some of these problems 
included a network security problem at a music company and a 
distributed data and networking problem for the Saturn 
Corporation. Students at Nashville State Community College, 
Roane State Community College, Tennessee State University, 
Middle Tennessee State University, and Austin Peay State 
University participated in this program to work more closely 
with business and industry.
    [Slide.]
    The concepts and projects I have highlighted have given us 
a fundamental knowledge base for educating cyber security 
workers as well as all workers who need to understand their 
work within the context of needed security. The road that has 
brought us to this point required several years of work in 
faculty development, materials development, and building 
partnerships with business and industry. Others around the 
country have worked on similar concepts with slightly different 
approaches. Together, and with the support of the NSF/ATE 
program, in two weeks, we will convene more than 250 community 
college technological faculty and administrators, along with 
some of their industry partners, university partners, and 
secondary partners in 31 teams from 17 states across the 
country in Nashville for Synergy 2004. The teams are 
represented on the map you see. At Synergy, these teams will 
begin to develop plans for educational reform of IT and IT-
enabled programs in their own regions of the country. Their 
work will be anchored by presentations from leading experts in 
teaching and learning, such as John Bransford, Jay McTighe, and 
Pam Tate. To provide the context and one global perspective, 
Doug Busch, the Chief Information Officer for Intel, will talk 
to us about the type of IT workforce we need to build if the 
country is to be competitive and to create jobs that will not 
be candidates to offshoring. I expect Mr. Busch to confirm that 
we are on the right track with the reform programs we have 
stated. In an interview Mr. Busch recently provided for us, he 
states, ``One of the key problems we see as private sector 
participants trying to contribute to improved technological 
education is the lack of a central focus for U.S. education. 
Reform of technical education is so fragmented in the United 
States that it often seems impossible to have a significant 
positive impact. This is very different from the situation in 
the countries the United States competes with. I believe it 
would be very useful to have a single focus point.''
    [Slide.]
    We also expect those who attend Synergy to leave motivated 
and prepared to begin to implement meaningful change. They will 
need to be supported in their efforts, and I believe the ATE 
program is looking for ways to do that. As I have explained, to 
be successful, these community colleges will need to be closely 
aligned with their business, industry, and government employers 
who will rely on the future workforce. Although our program and 
others have been successful in partnering with business and 
industry, doing so remains a barrier to many programs. 
Therefore, government programs that provide incentives for 
business and industry participation with community colleges 
would benefit all concerned. Initiatives that provide 
opportunities for faculty and students to participate in real-
world internships will further support these efforts. Also, the 
educational infrastructure in this country as it is currently 
structured creates silos of educational programs. To make real 
and substantial progress, we will need incentives to break down 
these barriers so that we can begin to build an education 
system for the future, one in which cyber security is a 
fundamental part of the context and the outcome.
    And the government's continued support of the ATE program 
so that the necessary materials development, faculty 
development in teaching and learning, and up-to-date technical 
knowledge can occur will be vital to the success of these 
colleges. Finally, to achieve the best result, technological 
education should be made a national priority.
    Thank you for this opportunity.
    [The prepared statement of Ms. Rogers follows:]

                  Prepared Statement of Sydney Rogers

    Good morning Mr. Chairman and Members of the Committee. My name is 
Sydney Rogers and I am Vice President of Community and Economic 
Development at Nashville State Technical Community College (NSCC) in 
Tennessee. NSCC is located in an urban area and serves a student body 
of approximately 7000 racially diverse students including approximately 
26 percent African American. The average age of an NSCC student is 30 
years. Many of our current students are already in the workforce and 
attend NSCC to acquire new work skills, some enter the workforce 
directly or transfer to Tennessee State University, a Historically 
Black College or University (HBCU) located less than five miles from 
our campus. Many others transfer to Middle Tennessee State University 
(MTSU) in Murfreesboro, Tn., or Austin Peay State University (APSU) in 
Clarksville, Tn.
    For nearly a decade, Nashville State Community College has led a 
regional effort to transform Information Technology education. The 
Advanced Technological Education (ATE) program of the National Science 
Foundation (NSF) has funded these activities. Our partners include the 
regional universities just listed above, local school systems, and 
dozens of business partners such as Saturn, BMI, Dell Computer, EDS, 
Hospital Corporation of America (HCA), and Vanderbilt University 
Medical Center, among others.
    Today we examine the challenge of educating skilled workers within 
the context of a world that is vastly different from the world when I 
began my career 30 years ago. My colleagues and I believe it is 
important to understand this new context in order to adequately 
understand what is needed to design and implement education programs 
that will develop a world-class competitive workforce, with respect to 
cyber security.
    The context of today's educational programs involves new and 
constantly evolving technologies that are dramatically changing every 
aspect of our society. New threats, such as terrorism and identity 
theft pose even greater security challenges while the distributed 
nature of systems and data storage complicates the control of security 
exponentially.
    Our response from a technical perspective has been to mitigate 
these exposures as much as possible through techniques such as patches 
and virus protection software and then reduce the exposure to risk with 
technologies like firewall protection and encryption. As a result, we 
find ourselves addressing the symptoms and not the real problem; 
systems designed and built without consideration of security. 
Technicians work on individual problems without an overall context. One 
Chief Network Officer in Nashville explains it this way, ``We are 
fixing the symptoms because we are dealing with legacy systems and our 
only solution is to fix the symptom.''
    Education's response today is to focus technician education on 
training for specific technical skills through certification programs, 
expansion of course content, addition of new courses, new 
concentrations, and new two- and four-year degrees and this slide shows 
some of the programs we are doing at my college and others in 
Tennessee. All of these approaches are necessary in order to protect 
today's systems, but how do we educate today for tomorrow's cyber risk? 
How do we build a workforce that will know how to use what they know in 
context and that will have the skills necessary to understand 
constantly changing technologies and what is needed to both use and 
protect them?
    Our industry partners in Tennessee tell us, as depicted here; cyber 
security professionals who require the most extensive technical 
knowledge also represent a relatively small number of workers who need 
specific highly technical cyber security skills. To be sure, all 
information technology professionals must possess the technical skills 
necessary to develop and maintain secure systems. Our employers tell us 
that all workers need some understanding of cyber security and some 
level of expertise in these skills. Even though community colleges and 
our NSF work touch all three of these areas, our ATE focus is in the 
preparation of IT professionals.
    To meet today's need and at the same time build a workforce that 
meets tomorrow's needs, we must move beyond traditional curriculum 
development methods that focus on silos of content with little context. 
We need to develop teaching and learning methods that foster learning, 
thinking, and problem solving in the context of the real world. Not 
only do workers need to know how to use their knowledge ``in context,'' 
but educational research has shown us that such methods produce great 
improvements in learning and that students prepared in this way more 
easily transfer what they know to new and different situations. My 
colleagues and I believe the ability to transfer knowledge more quickly 
will result in more adaptable workers who will be able to understand 
more quickly and apply changing technologies. The term the researchers 
use for this is ``adaptive expertise.'' Through a previous NSF/ATE 
grant called (SEATEC-DUE 9850307), NSCC in conjunction with Saleh 
Sbenaty of Middle Tennessee State University (MTSU), conducted a 
research study that tested the theory that students would more easily 
transfer technical knowledge learned using problem based case studies 
than they would knowledge learned using traditional methods. Although 
we did not address cyber security directly in this study, we believe 
the concept of knowledge transfer is important in building a workforce 
that is cyber security competent. For more information about this study 
and the results please see the article by Dr. Saleh Sbenaty of MTSU in 
the Proceeding of the 2002 American Society of Engineering Education 
(ASEE) Annual Conference and Exposition. The community colleges in 
Tennessee have learned much about how to transfer this research in to 
practice through our NSF/ATE grants. In 1998, Gerhard Salinger one of 
the lead program officers of the ATE program introduced us to John 
Bransford from Vanderbilt University (now at University of Washington). 
Dr. Bransford is the one of the editors of the National Research 
Council's publication ``How People Learn,'' an extensive collection of 
recent research on the subject. Working with him and his team of 
researchers, we have begun to transform the way we structure the 
learning environment. For information on how we have used this research 
to transform teaching and learning, see article in American Association 
of Community College Journal, October/November 2003 ``Transferring 
Teaching and Learning Research to the Classroom'' by Sydney Rogers and 
George Van Allen.
    We have developed model programs for bringing these workplace 
experiences directly to the students and creating more adaptable 
workers. Our contextual and problem-based methods all share some common 
characteristics. First, they are all based on authentic workplace 
problems. To bring these authentic workplace problems into the 
classroom requires a close and consistent working relationship with our 
business and industry partners. Just as technology and the workplace 
are changing constantly, these authentic experiences must also change. 
By implementing these experiences for students we are also building a 
curriculum that adapts and changes with changing technology and 
situations. Using these methods, then, we can create an educational 
system that builds a closer link between the content taught and the 
actual workplace application while also developing workers who are more 
able to adapt the knowledge they have to a rapidly changing world. 
Finally, to effectively teach using these methods, faculty must learn 
to function as highly skilled facilitators who guide students to 
discover and understand the appropriate scientific and technical 
knowledge. (See our websites for case studies of some of these 
authentic problems. www.cite-tn.org and www.casefiles.org)
    In Tennessee, the NSF/ATE projects have helped to develop a strong 
foundation for reeducating current workers and building programs for 
the future. For instance, we have just initiated a program with the 
Tennessee Telecommunications Association (TTA) to re-educate some of 
their workers. In a series of courses, including two courses on network 
security, our community college faculty will teach the TTA employees 
using the contextual and problem-based methods in the form of problem-
based case studies and real-time problems. Our faculty would not have 
the skills and knowledge to do this if we had not had the funding from 
the ATE program to provide faculty development opportunities for them. 
Our NSF/ATE Center for Information Technology (CITE) sponsors an 
electronic marketplace for workforce development called the Tennessee 
IT Exchange. Employers and students can find out where to obtain 
education on the latest technologies, including cyber security. The 
community colleges in the region, Nashville State, Columbia State, and 
Roane State along with the regional universities, TSU, MTSU, and APSU, 
all contribute to the Exchange. The Tennessee IT Exchange may be viewed 
at www.cite-tn.org. CITE also partnered with the local workforce 
investment board to H1B-Visa funds to middle Tennessee for retraining 
in IT. A portion of this training will be on cyber security.
    As for the future workforce in IT, we have piloted an exciting 
program that brings real-time industry technical problems directly into 
the classroom to be solved by students by partnering industry 
technicians with faculty at the community colleges and universities. 
Last year, some of these problems included a network security problem 
at a music company and a distributed data and networking problem for 
the Saturn Corporation. Results at both the community college and the 
university have exceeded expectations. For instance, Saturn and EDS 
worked with us on two problems, one at NSCC and one at Tennessee State 
University. Evaluations from students, faculty, and employers tell us 
that students are more engaged and learn better and Saturn is now 
considering implementing some of the student solutions at the plant. 
See attached description of this type problem solved by students at the 
DOE Y12 Security Complex in Oak Ridge, TN.
    Last year and this year, CITE partnered with the Nashville 
Technology Council to sponsor faculty and student teams at the 
Technology Council's annual ``IT Security Conference.'' At this 
conference, students' interaction with security experts and vendors 
provides a context for their learning. CITE is also helping to 
establish ``IT Academies'' in high schools across Tennessee to build a 
pipeline of students who will enter the workforce or college in 
technical IT careers. One such academy is located at Stratford High 
School, an inner city, mostly minority school in Nashville. It opened 
in the fall of 2003 with 97 students and nine faculty members. Thus 
far, 57 additional students have applied to attend in the fall of 2004.
    The concepts and projects I have highlighted have given us a 
fundamental knowledge base for educating cyber security workers as well 
as all workers who need to understand their work within the context of 
the needed security. The road that has brought us to this point 
required several years of work in faculty development, materials 
development, and building partnerships with business and industry. 
Others around the country have worked on similar concepts with slightly 
different approaches. Together and with the support of the NSF/ATE 
program, in two weeks we will convene more than 250 community college 
technological faculty and administrators, along with some of their 
industry partners, university partners, and secondary school partners 
in 31 teams from 17 states across the country in Nashville for 
``Synergy 2004'' (DUE 0412846). At ``Synergy,'' these teams will begin 
to develop plans for educational reform of IT and IT enabled programs 
in their own regions of the country. Their work will be anchored by 
presentations from leading experts in teaching and learning such as 
John Bransford, Jay McTighe, and Pam Tate. To provide the context and 
one global perspective, Doug Busch, the Chief Information Officer for 
Intel, will talk to us about the type of IT workforce we need to build 
if the country is to be competitive and to create jobs that will not be 
candidates to offshore. I expect Mr. Busch to confirm that we are on 
the right track with the reform programs we have started. In an 
interview Mr. Busch recently provided for us, he states, ``One of the 
key problems we see as private sector participants trying to contribute 
to improved education is the lack of a central focus for U.S. 
education. Reform of technical education is so fragmented in the United 
States that it often seems impossible to have a significant positive 
impact. This is very different from the situation in the countries the 
United States competes with. I believe it would be very useful to have 
a single focus point.'' Several colleges and universities around the 
country have collaborated to produce ``Synergy.'' They are Nashville 
State Technical Community College in Nashville Tennessee, University of 
Arkansas at Fort Smith, University of Massachusetts in Boston 
Massachusetts, Springfield Technical Community College in Springfield 
Massachusetts, and Bellevue Community College in Bellevue Washington. 
Please see www.synergy2004.org for a complete description of the 
meeting.
    We also expect those who attend ``Synergy'' to leave motivated and 
prepared to begin to implement meaningful change. They will need to be 
supported in their efforts and I believe ATE program is looking for 
ways to do that. As I have explained, to be successful, these community 
colleges will need to be closely aligned with their business, industry, 
and government employers who will rely on the future workforce. 
Although our program and others have been successful in partnering with 
business and industry, doing so remains a barrier to many programs. 
Many small businesses cannot donate the needed time and resources to 
our efforts. Therefore, government programs that provide incentives for 
business and industry participation with community colleges would 
benefit all concerned. Too, initiatives that provide opportunities for 
faculty and students to participate in real-world internships will 
further support these efforts. Also, the educational infrastructure in 
this country as it is currently structured creates ``silos'' of 
educational programs. To make real and substantial progress, we will 
need incentives to break down these barriers so that we can begin to 
build and education system for the future; one in which cyber security 
is a fundamental part of the context and the outcome.
    And, the government's continued support of the ATE program so that 
the necessary materials development, faculty development in teaching 
and learning, and up-to-date technical knowledge can occur will be 
vital to the success of these colleges. Finally, to achieve the best 
result, technological education should be made a national priority.
    Thank you for the opportunity to give you this information about 
our programs.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                      Biography for Sydney Rogers

    Ms. Sydney Rogers is Vice President for Community and Economic 
Development at Nashville State Technical Community College where she is 
responsible for workforce development, distance education, student 
services, computer services, and grants and development. Prior to this 
role, she served as Interim Vice President of Academic Affairs and Dean 
of Technologies at Nashville State Tech where she was also Department 
Chair and Associate Professor of Computer Information Systems for 20 
years. As Dean of Technologies, she was responsible for the overall 
success of 21 degree programs in Engineering Technology, Computer 
Technologies, Business, and Visual Communications.
    Ms. Rogers serves as lead principal investigator for the Center for 
Information Technology Education (CITE), a regional center funded by 
the National Science Foundation, Advanced Technological Education 
program and has led four other NSF ATE projects. Her work has focused 
on the reform of technological education to create a more adaptable 
workforce suited for the new century. She serves on three NSF National 
Visiting Committees and several local boards. She has 30 years of 
leadership experience in technological education and workforce 
development.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               Discussion

    Chairman Boehlert. Thank you very much.
    When academics and business people and military people and 
elected officials talk about a subject like cyber security, 
unfortunately, too often, it elicits muffled yawns, because 
people aren't really, sort of, focusing on it at all. Let me 
ask you this. Do we get it and do they get it? Now the ``we'' 
is America, in general. Understand the severity and the extent 
of the challenges facing us. And do ``they'' get it? And I am 
talking about young people, like you, obviously you get it, 
Lieutenant, and guidance counselors, on the great opportunities 
that are available in this field. Let us talk about in general, 
do they get it? Most businesses think their computers are 
secure. Most individuals, and we have got them by the millions 
across America, have got all sensitive information about their 
personal finances and everything else on their home computer, 
and they think it is secure. Is it?
    Mr. Hosmer, let me----
    Mr. Hosmer. Actually, I don't think any of us get it. I 
don't think any of us understand the threat of a cyber attack, 
the stealing of our personal information at any level. I think 
that we are still struggling with this, because the threat is 
emerging. It changes every day at Internet speed, and we have 
to react to it. One of the ways we try to counter that to get 
it down into the high schools is we have created a high school 
internship program, not only at the college level, to basically 
bring high school students in to teach them what this is really 
about today. And those students are going on further in their 
education at the undergraduate and graduate level after leaving 
high school to understand this. So we have to train our young 
people to do that and understand what they can do about it. And 
it is an exciting career opportunity. When you look at 
television today and you look at programs like CSI Miami, etc., 
they are starting to excite young people about this particular 
career, because it has all of the sex appeal that they are 
interested in, and we need their help. And I think those 
programs are actually introducing new ways for people to get 
involved in these kinds of programs.
    Chairman Boehlert. Lieutenant, you are nodding your head. 
When an officer nods to a non-enlisted guy, he says, ``yes, 
sir.''
    Second Lieutenant Aparicio. No, I nod my head to the 
Congressman. But I just wanted to just add on to what Mr. 
Hosmer said that we do need programs, more programs in the 
sense that--to bring awareness. And I think one example is what 
we are doing right now in Rome, New York with the ACE program, 
targeting JROTC to bring the awareness to everybody. They tell 
their friends. They bring awareness, and that is just one less 
person that we have to worry about.
    Chairman Boehlert. You know, everybody talks these days 
about identity theft. That is a big issue in America today. One 
of the easiest ways to be a very active and successful criminal 
in America today is to get a home computer and then go out and 
pilfer information from individuals on personal computers, from 
businesses, and--well, Mr. Baker, do you want to address that?
    Mr. Baker. I was thinking about your original question, 
too, about do we get it. And I think, on one level, we 
certainly do. I mean, if you don't--if you watch TV in any way, 
shape, or form, you, to some degree, get it. You know, there 
can be identity theft. There are problems. Businesses get it to 
some degree. Unfortunately, they sometimes get it a little too 
late. They get attacked by the most recent virus. They don't 
keep their software up-to-date to protect their systems and 
that kind of stuff. I think the more important issue is that 
the variety and levels of education that are needed and 
awareness--I mean, it starts with awareness building. And from 
there, it goes down to many deeper levels on the business side, 
the legal side, the computer science side where we can actually 
start building a cadre of professionals who can help protect us 
in many different ways, from the psychological, you know, who 
are these people and why do they attack us, to the more 
physical, how do we protect our software, how do we protect the 
networks, how do we protect our computers--personal computers 
and that kind of stuff.
    Chairman Boehlert. Mr. Spengler.
    Mr. Spengler. I think when we look at the question of do we 
get it and do businesses get it, I am looking at what has been 
going on this year. And I think before this year started, I 
don't think a lot of businesses did get it. But with the 
proliferation of an enormous amount of viruses, business and 
industry now are spending more time on fighting those issues 
than actually enhancing and upgrading their networking systems. 
Unfortunately, the people that do get it are the people who are 
affected one at a time. It isn't almost until you are affected 
that you do understand the critical importance of the nature of 
it. What needs to be done is to focus on, again, and I totally 
agree with the processes of security awareness, but 
additionally, to focus on the policies and practices of 
companies being able to look at and address these types of 
issues.
    From a curriculum standpoint at the community college, we 
are positioned very well to address from a practical skills and 
tools standpoint, these types of issues. Within our center, we 
look at the flow of curriculum as being a critical direction, 
being able to generate the new generation of practitioners from 
a general security understanding standpoint to more specific 
bridges in technologies to be productive in business and 
industry, such as the health care and financial industries.
    Chairman Boehlert. Ms. Rogers, do you have any----
    Ms. Rogers. The employers that I have spoken with recently 
about this, in particular I have spoken with a senior executive 
in IT from one of the largest health care companies in 
Nashville, and I think that they get it. I think he gets it. I 
don't think he feels very secure. They are doing everything 
they can, but I think he thinks it is fragile, but--and I am 
paraphrasing--he said that we have got a dangerous combination, 
because the people who are working on cyber security understand 
it very well, those who are the professionals. But the--all of 
the other workers don't get it, and he--and his words were, 
``This is a dangerous combination.''
    Chairman Boehlert. Well, let me assure all of you that we 
get it on this Science Committee, but you would expect that 
this committee does, on a bipartisan basis. My bill, the Cyber 
Security Research and Development Act, was passed out of here, 
passed by the House and Senate, signed into law by the 
President. And that is very important, but you know, this room 
should be packed with representatives of the media. We have the 
specialty, technical press represented, but the popular media, 
so more and more people begin to appreciate the severity and 
extent of the problem.
    When I was a young kid, I can remember vividly the Buck 
Rogers' stories. You know, a man on the Moon and everybody used 
to chuckle it would never happen. Last night, I attended the 
35th anniversary of Apollo 11 when Aldrin and Armstrong walked 
on the Moon. And right now, it is not farfetched to think in 
terms if there ever is, God forbid, a World War III, it could 
be fought not with guns and bullets or ships or tanks or 
planes, but with computers. Our whole financial system, our 
transportation network, our electric grids, so much is 
dependent on a computer, so the subject here today is extremely 
important. And that is why we value so highly your testimony, 
and that is why we are focusing on education for the next 
generation, the Lieutenant Aparicios and those who will follow 
who will be on the front lines in this battle.
    Thank you very much.
    Mr. Gordon.
    Mr. Gordon. Thank you.
    Ms. Rogers, you have had experience with the NSF's ATE 
program and said it had been helpful at Nashville Tech. Can you 
give us any thoughts as to how that program can be improved in 
either content or administration?
    Ms. Rogers. I don't have any suggestions on how it could be 
improved in the administration, although, you know, I might if 
I thought about it longer, but to tell you the truth, I have 
been involved for 30 years in higher education in a number of 
federal programs and had a number of federal grants from 
different programs. And I have to tell you that as far as what 
is happening with ATE and technological education, it is of the 
highest quality. It is the best one that I have ever worked 
with. What I see as the problem, from my perspective, is that 
there are so many more community colleges who need help in this 
area, and you know, the funding pie is just what it is. So you 
hate to say just put more money there, but the fact is that 
there are a lot of good projects that are out there. Other 
schools want to participate with us and they just can't, 
because there is just not enough funding there. It is one of 
the--it is the best program, federal program, I have been 
associated with, frankly.
    Mr. Gordon. Anyone else have any suggestions on improving 
the ATE program?
    Mr. Spengler. From an NSF standpoint, administration, I 
think that NSF has--and the ATE, have been making solid steps 
with--to look at the collaboration between the different funded 
projects from NSF, which is allowing us to more broadly take in 
the work that has been done in specific projects and 
disseminate that work out to other schools that can benefit 
from the work. It is firmly our belief that without the NSF/ATE 
program, many of the faculty, quite frankly, couldn't afford 
the types of training needed to have quality programs within 
the schools, and many of the programs, absolutely, would not 
exist within these schools.
    Mr. Gordon. We frequently talk about and hear good and bad 
about federal programs, but the NSF, I think more than anything 
else, is consistently given high marks in all regards. We are 
able to double the funds for NIH. I hope we are, at some point, 
going to be able to double funds over a period of time for the 
NSF. I think that is very, very important.
    And Mr. Hosmer, in your written statement, you had talked 
about there should be a role, a federal role, in establishing 
national accreditation for cyber security education and 
training programs. You know, typically that is done by non-
governmental entities. Could you elaborate more on why you 
think there should be a federal role here?
    Mr. Hosmer. Actually, it is an excellent point. One of the 
things that we see is many of the training programs that are 
out there that law enforcement, defense, corporate security 
take in order to basically make themselves current, they 
participate in these every year, and they spend a lot of money 
and a lot of time. And many of those programs come with 
continuing education credits from specific universities that 
are associated with that particular vendor's training program. 
Unfortunately, they end up with all of these ad hoc credits 
from, maybe, 10 or 15 different universities, and there is no 
way to bring them together in order to get a degree or any kind 
of overwhelming accreditation.
    The second problem is that there are so many courses that 
are out there trying to understand the quality issues that are 
associated with each one of those programs and which ones to 
select and which ones to take because the investments are 
significant. What we are seeing in the marketplace today is 
typically $750 to $1,000 per day of, you know, advanced 
training in any kind of digital investigation or cyber 
security, plus the time and the travel in order to be able to 
do it. So you could easily spend $25,000 to $30,000 per year 
per employee in order to take these, and they come out of it 
with a certificate and not with any kind of degree from----
    Mr. Gordon. Those are legitimate concerns. I guess my 
question, though, is why--or what would be a federal role here 
where typically it is, you know, a non-governmental 
accreditation body that does those sorts of things?
    Mr. Spengler. I think the government role can be one of 
coordination, one of bringing together those universities that 
are accrediting all of these courses out there and trying to 
come up with some sort of national program, not to basically 
administer it, but actually to coordinate it, to hold more 
hearings on how to bring those things together so that the 
universities and industry partnerships can be formed so that we 
can solve this basic problem. It is not being solved by the 
universities by themselves or the industry partners by 
themselves, and it needs some sort of organization that can 
basically help bring that together.
    Mr. Gordon. Anyone else have any--yes, sir.
    Mr. Baker. I look at it as two different issues. One is 
accreditation. And I understand where you are coming from. If 
you look at the model where business programs are accredited, 
that is somewhat of a private institution, ACSB, those 
accreditations, so to speak, for business programs, and I think 
that is the kind of context in which your question is coming 
out. You know, shouldn't we have that kind of model for 
accreditation for security programs? But I think the first step 
to that process is creating standards in education, looking at 
the variety of education needs from the end user in a 
particular discipline, be it medicine or manufacturing or 
whatever the area is, and the levels of people. Some staff just 
need to be aware of what is going on, and to know that they 
should be thinking about security, all of the way to the more 
technical level where we look at software development and the 
issues of applications development to security and network 
development and the security that goes with those kinds of 
things. You know, in the classroom, we often joke with the 
students about, you know, how are you securing your log-on to a 
particular system, you know. You put in a very difficult 
password and user ID, but in point of fact, you can't remember 
it, so we go to putting it on a little piece of, what, paper 
and sticking it next to your monitor and, you know, gee, no one 
would think to look there to find the user ID and password. You 
know, those kinds of things. Be aware of not doing those 
things. You know, from awareness all of the way down to the 
more technical levels. So I think it starts with, you know, 
what kinds of security education needs to be done, what kind of 
standards should apply to that at what levels in different 
disciplines, and then look at accrediting different kinds of 
programs, because they--there are different needs at different 
levels.
    Chairman Boehlert. Thank you very much. The gentleman's 
time has expired.
    The Chair recognizes the distinguished Chairman of the 
Subcommittee on Research, the gentleman from Michigan, Mr. 
Smith for five minutes.
    Mr. Smith. Mr. Chairman, thank you.
    Really an exciting hearing in terms of the potential for 
problems that we have already looked at. It seems to me, 
though, that a country, such as the United States that probably 
has a greater dependency on the Internet and computer systems 
and the fact that the inter-connectedness of these systems, 
whether it is banking or food distribution or the military or 
airlines or anything else, big corporations, the military, the 
inter-connectedness is very important because of the 
usefulness. And it seems to me that that brings in two 
questions, not only the cyber security and the potential for 
damage because of the inter-linking of the computers, but also 
the physical, potential physical damage that could be done to 
central servers. So part of my question, Mr. Baker and Mr. 
Hosmer and maybe Lieutenant, is should there be or is there any 
consideration for somewhat of a confidential setting for the 
server systems that might be more vulnerable to physical 
attack?
    Mr. Baker. The short answer is probably yes. The longer 
answer is look at some of the protection systems that have been 
put in place by various organizations. If you take the events 
of September 11 and look at what occurred on September 11, the 
computer systems in point of fact were ready to go fairly 
quickly after that occurred, because they had already--most of 
the financial industry, which is highly dependent on network 
information systems, had their systems off-site, remote 
locations, not easy to get to in one single attack. They 
recognize disaster recovery planning and the needs for it. So 
they were somewhat prepared.
    Mr. Smith. So are you saying that most of these systems, 
whether you are a large corporation or a financial institution, 
the way we move money or move materials or move airplanes or 
move personnel, that they have more--they have several servers 
that can accommodate the damage to any one single facility 
server? I sort of was under the impression that a lot of these 
corporations and the people that--where they outsource server 
networking accommodations are centrally located.
    Mr. Baker. Some organizations will. Most of the medium to 
larger sized organizations will have backup systems. They will 
do remote off-site storage. There are a number of organizations 
that provide off-site storage capability in various parts of 
the country and recovery capabilities in various parts of the 
country. And some organizations have redundant systems where--
--
    Mr. Smith. How serious would be the physical damage of a 
car bomb, an Oklahoma type bomb or a bunker buster type bomb, 
to a large, central server center that does work for even--
either--for anything?
    Mr. Baker. My guess would be probably down for a day or 
two, but if it is any sizable organization, they recognize the 
need for, again, disaster recovery planning and have probably 
put in place the ability to get back up fairly quickly. You 
know, one of my former roles, before I came into education 
full-time, was to run an IT organization for a large group. And 
the issue that we addressed most importantly was disaster 
recovery. And we had put in place the ability to get back up 
and running within a day or two.
    Mr. Smith. Mr. Hosmer, at Utica, or Mr. Baker, at Johns 
Hopkins, what would be the salary for an individual graduating 
with a Master's degree in--specializing in cyber security?
    Mr. Hosmer. Well, that certainly depends, you know, on the 
job that they are going to take, but the starting salaries out 
of those are certainly in the $50,000 to $75,000 range in our 
region for graduates, and that could be higher in other parts 
of the country, certainly, but as a starting salary, that would 
be very typical.
    Mr. Smith. So if a terrorist organization that didn't look 
like a terrorist organization offered $150,000, they probably 
could hire the greatest talent that might be graduating?
    Mr. Hosmer. Just about anybody they wanted to, sure.
    Mr. Baker. Okay. Now your point--the previous question that 
you asked is that, you know, we tend to think about cyber 
attacks or attacks on the physical infrastructure from the 
outside in. The greater threat is from the inside out. The 
insider threat that we have to counter inside our organizations 
and the trust that we put in people that have access to those 
systems. And in, typically, most organizations, it isn't one 
person that has the keys to the kingdom; it is typically 
multiple people in the organization that have keys to the 
kingdom. Everybody has root access in order to be able to 
access those systems and modify them. So the real threat, from 
a cyber security perspective, is the insider threat, and we 
focus most of our attention on the outsider threat where, in 
fact, we need to turn more attention to the inside.
    Mr. Smith. Will your graduates--concluding, Mr. Chairman. 
Will your graduates or--Lieutenant----
    Second Lieutenant Aparicio. Aparicio.
    Mr. Smith [continuing]. Aparicio, will their talents and 
what they learned be obsolete because of the technological 
advances that are taking place in computers? And it is such a 
changing evolution, it seems like, just in the last 10 years of 
what has happened in research and science and computers, will 
what we are learning now--is it continually being updated for a 
person that wants to be in that field? Lieutenant----
    Second Lieutenant Aparicio. Sir----
    Mr. Smith [continuing]. Are you going back to refreshers 
every six months?
    Second Lieutenant Aparicio. Oh, well, I was going to 
comment on that. We have to--as military members, we are always 
being trained, having required reading courses, and it is just 
part of professional education to keep up. And as--to answer 
your question about the graduates, I don't believe that they 
would be obsolete if they keep on learning. The students that 
we target, they are not necessarily what I would say the 
average, but there are requirements, and most of them have 
higher aspirations to continue on learning. I think that that 
is true for most people who--you know, you don't just stop 
learning right after high school. You don't stop learning after 
college. To keep up----
    Mr. Smith. Sometimes when you get to Congress, it slows 
down a little bit.
    Second Lieutenant Aparicio. I wasn't implying that, either, 
sir.
    Mr. Smith. Thank you, Mr. Chairman.
    Chairman Boehlert. And that is why we invite expert 
witnesses like that to continue to be teaching.
    The gentleman from Washington, Mr. Baird.
    Mr. Baird. Thank you very much. I thank the Chairman for 
hosting this important meeting, and I thank the panelists.
    I had the coincidental good fortune of riding on the flight 
here with the gentleman who wrote the security standard for 
wireless Internet technology. It is one of those great 
serendipitous things. And I asked him to look at some of the 
issues today. And I thought his comments were interesting. He 
personally suggested to me that the notion of a certification 
exam probably was going to be obsolete before you actually--by 
the time you have created the exam, the world of real-world 
change has probably exceeded the exam, so he didn't think we 
should spend a lot of time on that. And certainly my 
experience, which is limited, but--would suggest that may be 
the case.
    Two questions I have, one from him and then one of my own. 
He expressed a challenge that academics often have a difficult 
time working within the government setting, and within, more 
importantly, perhaps, with industry. So you have got the 
academics, the cryptographers, etc., working on the 
mathematical equations within the academic institutions, but 
then you have got the people working on the standards within 
industry. And one of this gentleman's claim to fame was he 
basically broke into the initial wireless standard in about 30 
seconds flat. He just looked at it and said, ``You have got a 
huge flaw here,'' because basically the folks doing the 
industry side were the guys working on the radio side of it and 
the broadcast side of the--of wireless, and he was looking at 
the cryptographic issues. So the question I would have is what 
obstacles do we face in terms of interactions between the 
academic side, the government standard setting side, and real-
world industry that is creating the hardware and software that 
we use, and how can we address those?
    Mr. Spengler. I would like to address just--the obstacle we 
face is the complexities of developing quality faculty and 
spending those times becomes difficult when you are looking at 
practical experience. Sometimes we look at developing those 
skills and then we bring those skills to the classroom. But for 
faculty to really be effective and efficient within the 
classroom environment, they need to understand the applications 
of technologies out in the workforce. It is our belief that the 
encouragement of faculty participating in real-world work 
experiences is critical to the ongoing development, not just 
the attending of courses, to build a finite set of skills that 
might be changed in a quick manner. What we try to encourage is 
to establish relationships with business and industry not just 
to look at the concept of students being able to go out in the 
professional development environments but for faculty to 
participate. For example, we are working with a hospital called 
Gotlieb Hospital in the Chicago area and implemented voice-over 
wireless within the hospital. So we approached them, and we are 
working on a partnership with this hospital, and again, we are 
trying to model that throughout the Midwest for us to be able 
to identify meaningful projects that are going on out in 
industry and to be able to schedule those and including faculty 
as part of those projects. What we are finding that is very 
interesting is that in many times--in many cases, faculty are 
actually able to excel in those areas because of their detailed 
knowledge of the actual technologies and they are actually able 
to offer a lot to business and industry at the times they are 
participating in this type of externship opportunities.
    Mr. Baird. Great example.
    Ms. Rogers.
    Ms. Rogers. I would like to address that, too. The basis 
for almost all of our work at our NSF project has been to 
develop what we call contextual problems, but it is all based 
on authentic workplace experiences. We have two kinds. One we 
call problem-based case studies where current problems in 
industry are brought into the classroom. But even in more 
recent types of authentic experience we have the students 
actually solving industry problems, real-time in working with 
the industry. And we think that we have to make that a part of 
the curriculum development process so that we have a dynamic 
curriculum development process.
    Mr. Baird. That makes sense to me.
    Ms. Rogers. And the other thing that I think is relevant 
here is that the whole issue of retraining that comes up in 
understanding new information, what we have worked on, and 
education research supports this, is that we know how, by 
structuring the learning environment the right way, to create 
workers and employees that are more adaptable. We know--we have 
evidence of how to make people transfer knowledge better from 
one situation to new situations based on the way that they are 
taught. So if we can further that effort and teach them 
differently, we can create a workforce that is more adaptable, 
and therefore more able to understand the new stuff as it comes 
out.
    Mr. Baird. Thank you.
    Mr. Baker.
    Mr. Baker. Yeah. One of the things--a couple of things that 
come to mind, you know, one, the question of, you know, can we 
keep up with the technology as it is evolving, and to some 
degree, yes. And that is a little bit of the difference between 
training and education. We look at education as the process of 
teaching a student how to learn so that they can keep up on 
their own. You know, training is learning how to do something 
very specific. Education is teaching how to learn, how to do 
information literacy, how to research things, etc. And a second 
comment, along with the ones that Ms. Rogers was making, that 
you know, in our programs, we have the same kind of--I don't 
want to call it experiential, but completion part of our 
program where at the end of their degree, we like to 
characterize it as you need to see where the rubber meets the 
road. Okay. Here is what you have learned in the classroom, now 
let us take it out into the practical world. So we have a 
senior project where students over, roughly, a 20-week period 
of time are doing projects for organizations or doing some 
applied research for organizations, etc., so that they can take 
what they have learned and then see how it really works, you 
know, from the real-world perspective, so that they can 
understand the translation of yes, I learned this theory and 
sometimes it doesn't work, but sometimes it does, and here is 
how I can improve things.
    Mr. Baird. Mr. Chairman, I know my time is expired. I 
might, if I may--I appreciate those answers. The one thing I 
would say--the question I was going to ask, but I know I am out 
of time, but for a future reference----
    Chairman Boehlert. You can ask the question. Go ahead.
    Mr. Baird. Well, it is--oh, he is gone. Okay. The question 
is this. My understanding is that increasingly chip fabrication 
facilities are locating--they have been, for a long time, 
locating offshore in Taiwan, but now increasingly on Mainland 
China. The fabs are going there. Increasingly, we know that we 
are outsourcing code writing, and I have a two-part concern as 
this relates to cyber security. One, are we losing or is it--
maybe is it eroding our technological, educational, academic 
base of expertise in these areas so we are going to get more 
and more people with more expertise abroad than domestically? 
And two, is code written or hardware developed offshore posing 
a security threat that we need to be cognizant of?
    Mr. Hosmer. That was what I thought your question was 
originally, and I was going to address that. I mean, obviously 
most of the vulnerabilities within systems today are 
vulnerabilities caused by bad software. Okay. And the reason is 
that security is typically an afterthought, not a forethought, 
in the process of developing these systems. Further 
complicating it are your exact points of moving most of the 
software development offshore. The estimates are the next 
version of Microsoft Windows is going to have 100 million lines 
of code. If you think about 75 or 80 percent of that being 
developed offshore, and this is the critical infrastructure 
that we are basing our Nation on, it is certainly a risk to be 
concerned about, because it is impractical to walk through 
every line of software in those systems in order to be able to 
address the threat. So we have to come up with a better way, 
and that goes into training and education to build better 
software, but also how do we assess and analyze that in order 
to basically determine if it is safe.
    Mr. Baker. Yeah, one of the things I would say is it also 
is a matter of jobs and students going into programs wonder if 
there is going to be a job coming out, and to some degree, the 
answer is no, and so they think of other things to do.
    Mr. Spengler. I would like to add one more item on that. We 
initially started our center focusing on predator protection 
and information assurance. And one of those--one of the issues 
that quickly came up was the idea of secure coding. When taking 
a look at the available programs in secure coding, we found 
that there wasn't a lot currently out there as far as structure 
and secure coding environments. We contacted some professionals 
in the industry, and they concurred, and that is one of the 
directions of secure coding. Does it pose a risk if those jobs 
and that software are moved offshore? My answer would be yes.
    Ms. Rogers. One of the employers in Nashville said that 
secure coding is worse than Y2K with no end in sight.
    Mr. Baird. Expand on that, if you would, Ms. Rogers.
    Ms. Rogers. Well, he sees the problem as, you know, 
especially in the legacy systems where what we are trying to do 
is protect and just sort of patch what has already been 
developed out there, because those systems weren't developed 
with security in mind. And so if we think about developing the 
future workforce so that they can develop our new systems and 
doing so with security in mind is part of the design on the 
front end, but then if you add the issue of taking those jobs 
offshore, then you have really got a problem, as you pointed 
out. I mean, he--and he said that this problem that we are 
dealing with the legacy systems all over the country is--it--I 
think that--his word wasn't fragile, but that was what he 
meant.
    Mr. Baird. I appreciate that we now know a new problem. I 
don't know that we will get the solution in today's hearing, 
but it is----
    Chairman Boehlert. Thank you very much.
    Well, I will wrap it up with sort of a two-part question. 
The first part is do we know the extent of the challenge? And 
it has been suggested by many that entities, whether they be 
private sector businesses or public sector government, are 
reluctant to share information about their vulnerabilities. And 
so we really probably don't know the extent of the problem. And 
secondly, what do we do? How would you suggest we do something 
to promote a national awareness program so that the individual, 
the business, people across the broad spectrum will appreciate 
that this is a very serious issue facing the Nation at a 
critical time and we better darn well be responsive in 
addressing the issue? Two-part question. Do we know the extent 
of the problem and how do we increase public awareness so 
that--well, that is enough.
    Mr. Hosmer or anybody?
    Mr. Hosmer. Well, I think the extent of the problem has 
always been an issue. It has always been underreported, because 
of the concern that it would have on the organization. 
Legislation, like Sarbanes-Oxley, that has been passed that 
requires the reporting of those kinds of things and that will 
go into effect on November 15 of this year, are going to 
require at least publicly-traded corporations to provide public 
data about those threats, also about audits and other things 
that could have been modified. So that is a step in the right 
direction, so there is going to be more full reporting, at 
least from publicly-traded companies, on those kinds of 
impacts. But there is still a lot that is not going to be 
reported. And I think without that reporting and understanding 
of the problem and the sharing of that information, everything 
in this area has been underfunded because of that. I think the 
awareness issue is attempting to be addressed through 
conferences and workshops that are popping up everywhere in the 
country. I have seen an increase in participation and the 
number of those over the last two to three years. They have 
been significantly increasing from virtually every aspect of 
our community. And the attendance, because we go to all of 
those, has been significantly up. So that is happening 
automatically through the normal channels, but it is certainly 
still not enough. I mean, we still need to get this information 
out to people to talk about the threats about the 
vulnerabilities that are out there and encourage some sort of 
national communication and reporting of the problems that we 
face.
    Chairman Boehlert. You know, I recall a conversation I had 
a few years ago with an executive of a credit card company, 
who, at that time, and this was maybe eight years ago, told me 
that his company's experience--well, they lost, on average, 
about $100 million a year due to fraud, most of which was 
perpetrated using cyber systems. And he said his company 
concluded that was an acceptable loss, because it would 
probably cost them more than that to prevent that loss. And I 
said to myself, just like me, Americans have a lot of plastic 
in their pocket. And we are paying interest rates higher than 
we should pay, because we have to cover that fraud and that 
loss. So it affects every single person in a variety of ways.
    Mr. Baker.
    Mr. Baker. It is interesting you would mention that, 
because you know, one of the thoughts that came to my mind when 
you talked about awareness programs, to some degree, business 
is doing it for us. You look at the Citi Bank ads with identity 
theft. You know, they are hard to forget, because they are so 
cute, but they drive the point home, ``Be careful about the 
information about you,'' which is an awareness program. It is 
an awareness campaign. Taking it to other levels and other 
areas is another story, you know, protect your computer and 
that kind of stuff, you know, because it is only about 
protecting the credit card that you have. To some degree, 
legislation that has been passed has already helped. I mean, 
HCFA [Health Care Financing Administration] is raising 
awareness in the medical area. Sarbanes-Oxley, as Mr. Hosmer 
has already indicated, is going to certainly raise awareness in 
the private sector of what we have got to do. To some degree, I 
don't think they quite understood yet what it really means, but 
it certainly will hit them square in the face, you know, when 
they start getting questions about their finances. And 
business, to some degree, and you have already kind of 
expressed this, looks at it as a cost of doing business. So if 
it costs me $300 million to put in security and I lose $100 
million, on balance, I will pay the $100 million instead of 
$300 million.
    Chairman Boehlert. But you don't pay the $100 million, we 
do.
    Mr. Baker. Right. That is correct.
    Chairman Boehlert. Anyone else care to--Lieutenant?
    Second Lieutenant Aparicio. Sir, I was going to try and 
answer a comment on both of those questions, and the--to the 
point on the knowing the extent of the challenge, I think we 
know the challenge, but America does not necessarily understand 
the challenge. But the people who really do are the younger 
generation. And so for, like a lot of people, they say, ``Well, 
I can't fix my computer, but my son does,'' or ``My daughter 
can fix it, because I don't even know what is going on.'' And 
so again, that shows that we understand that the younger 
generation has more of a command on that. And what we need to 
do is be targeting that next generation who is going to be 
running everything around here soon and educating them. And how 
we, again, could help out is just, as mentioned earlier about 
the Citi Bank or credit card commercials that we see that we 
laugh at, we need to be, probably, doing some sort of 
announcements or putting it on TV where we all can watch and 
see the extent of it. You know, just like a simple, ``Would you 
park your car in DC unlocked? Well, then why do you have your 
network,'' you know, ``running open, too?'' You know.
    Chairman Boehlert. Sure.
    Second Lieutenant Aparicio. Just things like that, but I 
would just say we need to be targeting the younger generation.
    Chairman Boehlert. Well, let me say we agree with that 
wholeheartedly, and we are comforted on this committee and in 
Congress when we see young people like you with your very 
impressive record and direction in which you are going. And you 
are reflective of so many more that are with you and doing what 
you are doing. We just need more of you.
    Second Lieutenant Aparicio. Thank you, sir.
    Chairman Boehlert. Anyone else? Mr. Baker.
    Mr. Baker. I--yeah. Interesting you were talking about the 
younger people, and I agree with that about the grade schools 
and the high schools, and it is kind of anecdotal information, 
but it kind of drives home the point of how much the younger 
generation understands technology. My son is here today, and 
one of the things I talked about in my class about him, he 
doesn't know this yet, is that in the fifth grade, he did five 
PowerPoint presentations that year.
    Chairman Boehlert. In the fifth grade?
    Mr. Baker. In the fifth grade. And the next year, he wanted 
to stop doing those and go back to doing poster boards, because 
it was a lot of work. But I think it underscores just how much 
technology that the younger generation understands. He likes to 
get on the Web. What does he like to look for? Game codes so 
that he can figure out how to get through his video games 
faster and get more advanced----
    Chairman Boehlert. Mr. Baker, that allows me to get an 
applaud for something this committee has done. We are 
responsible for the science and math initiative for America, 
because we look at the international comparisons. And our 
youngsters, when compared to their counterparts around the 
world in math and science proficiency, if you issue a report 
card, there is need for improvement. The fourth graders are 
about on par with their counterparts around the world in math 
and science proficiency. The international comparisons show 
that by the eighth grade, we are falling a little bit behind, 
and by the twelfth grade, we are way down on the list. That is 
not good enough for America. So we, in this committee, the 
Science Committee, Democrats and Republicans working together, 
added to the No Child Left Behind big education initiative, 
something that is called the Math and Science Partnership 
Program. We are determined to do a better job of producing more 
people like Lieutenant Aparicio, because if we fail on that 
mission, shame on us. We are not going to fail. We are going to 
succeed.
    Does anyone else have anything for the good of--Mr. Hosmer.
    Mr. Hosmer. Just one final point on your--the acceptable 
losses from the credit card companies. The reason that there 
can be no acceptable losses, regardless of who is paying the 
bill, is because where are those funds going that have been 
stolen, because criminal organizations and terrorist 
organizations attack those infrastructures in order to fund 
their other operations? And I think that we have to look at all 
of those losses and find out where they are going, because they 
may be going into a place that none of us would accept, 
regardless of how small the losses were.
    Chairman Boehlert. Thank you very much.
    I wish the media would beat a path to the door of the boot 
camp, cyber security boot camp up in Rome, New York. This year, 
they have got about 28 Aparicios up there, and they are the 
best and the brightest from all over the country. They have 
such a promising career path ahead of them, and as you have 
observed in the upstate region, you know, a graduate starts at 
$50,000 to $75,000. That is not a bad start. And the future is 
virtually unlimited for them, so we have got to do a better job 
of advising more people of the great opportunities and also 
heightening the awareness of the American public on the 
challenges that face us.
    And you have been facilitators for this committee in that 
regard, and I thank you all for your testimony. This hearing is 
adjourned.
    [Whereupon, at 11:35 a.m., the Committee was adjourned.]

                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions
Responses by Chester ``Chet'' Hosmer, President & CEO, WetStone 
        Technologies, Inc.

Questions submitted by Representative Bart Gordon

Q1.  In general, what is the state of credentialing for cyber security 
professionals?

Q1a.  Are there certification standards in place or under development 
for cyber security education and training programs?

A1a. Certification today comes in basically two flavors: Formal 
training courses held for law enforcement, such as those held at the 
Federal Law Enforcement Training Center (FLETC), and the International 
Association of Computer Investigative Specialist (IACIS). These courses 
offer certifications that carry significant weight in the community. 
The second is courses being offered by commercial organizations 
offering certifications. These certifications are offered by the 
hosting organization. Typically the certification requires the 
participants to take a test that is a combination of a written test and 
a practical examination.

Q1b.  Do formal mechanisms exist to develop such standards, and if so, 
please describe how they work?

A1b. Certainly on the federal level, certifications offered by FLETC 
and IACIS are reviewed by advisory boards. In the commercial sector, a 
similar model is put in place by organizations offering the training. 
However, the acceptance of these credentials is based primarily on the 
respect for the organizations offering the training, which is based on 
the perception in the marketplace.

Q1c.  To what extent are academic credits for cyber security studies 
earned through programs at one institution transferable to another in 
furtherance of meeting degree requirements?

A1c. Several organizations (WetStone being one) have entered 
partnerships with colleges and universities to offer continuing 
education units (CEU's) for students completing training courses. Here 
in New York State, the formula is typically .1 CEU per contact hour. 
Therefore, a two-day--16-hour training course would yield 1.6 CEU's. In 
our case, our instructors, course materials, and curriculum are 
reviewed by the college and then approved. Periodically, professors 
will sit in on one of our courses and provide feedback and suggestions. 
The use of these CEU's is an important consideration, and my suggestion 
is to establish criteria for national recognition of the CEU's that 
would allow these credits to be applied more easily toward degree 
programs.

Q1d.  Is there a federal role in establishing national accreditation of 
cyber security education and training programs, and if so, how would 
you characterize it?

A1d. I believe the advancement of cyber security education and training 
is an essential ingredient in improving our nation's cyber security 
posture. The Federal Government has an opportunity to work with, and 
bring together colleges, universities, training organizations and those 
charged with the protection of our critical cyber security resources, 
to help establish standards and accreditation for professionals at all 
levels. I would recommend the establishment of a working group that 
could, within a short-time (12 months), study the situation further and 
deliver a report to the House Science Committee with recommendations 
regarding the needs, impact and nature of such a national 
accreditation.

Q2.  What is the supply and demand situation for individuals with cyber 
security expertise? What evidence do you have that such individuals are 
in demand, and what skill sets are most in demand?

A2. Today the investigation of cybercrime activities is at an all time 
high. Virtually every law enforcement organization in this country has 
increased their backlog of cases involving digital or cyber evidence. 
The law enforcement agencies that we work with are constantly seeking 
assistance, new technologies and methods to speed the investigative 
process, and additional human resources to interpret the results. Today 
more and more digital evidence relating to both traditional and 
cybercrime activities enters U.S. Courtrooms. The need for highly 
trained cyber security professionals that can collect, analyze, 
interpret and report on cyber activities is upon us. We must rapidly 
expand this cyber security workforce with individuals that are not only 
talented, skill and dedicated, but also bring a high degree of 
integrity and ethics to the process.
                   Answers to Post-Hearing Questions
Responses by John R. Baker, Sr., Director, Technology Programs, 
        Division of Undergraduate Education, School of Professional 
        Studies in Business and Education, Johns Hopkins University

Questions submitted by Representative Bart Gordon

Q1.  In general, what is the state of credentialing for cyber security 
professionals?

Q1a.  Are there certification standards in place or under development 
for cyber security education and training programs?

A1a. While there are some recognized credentials for information 
security professionals, there is no widely recognized, independent 
credentialing organization or process currently in place. Unlike 
accounting and other professions, the `standard' is to recognize 
credentials offered by companies established to do the credentialing. 
ISC<SUP>2</SUP>, CompTia and SANS are the most widely recognized 
organizations providing such credentials. Each has some `standards' for 
their credential and a course intended to prepare the professional to 
take the credentialing test, which they also provide.

Q1b.  Do formal mechanisms exist to develop such standards, and if so, 
please describe how they work?

A1b. I am not aware of any formal mechanisms currently in place to 
develop fully independent credentialing for security professionals at 
various levels.

Q1c.  To what extent are academic credits for cyber security studies 
earned through programs at one institution transferable to another in 
furtherance of meeting degree requirements?

A1c. The typical arrangements are for one institution to accept credits 
from another accredited institution. Academic institutions in the U.S. 
are accredited by a regional accrediting organization, sanctioned by 
the Dept. of Education. (Johns Hopkins is accredited by the Middle 
States Accrediting body.) However, each institution usually reserves 
the right to not accept credits from another institution, usually, 
because 1) the number of credits to be transferred in for a student 
exceeds some limit, 2) they are not applicable to the program the 
student will be entering at the new institution, or 3) there is some 
question of validity of the sending organization or the credits.
    Also, if the organization that is providing the credits is from 
outside the U.S., another process is in place to determine the validity 
and applicability of the incoming credits.

Q1d.  Is there a federal role in establishing national accreditation of 
cyber security education and training programs, and if so, how would 
you characterize it?

A1d. At the moment, the federal role should be reserved to encourage 
the industry to develop an independent set of credentialing criteria. 
This could be accomplished through some small grants intended to start 
such a process, and/or the development of specific standards within the 
Federal Government for various levels of security professionals. 
Credentials should be tied to specific job task or employment 
requirements. NIST has done some work in this area.
    Once the credential requirements are established and the process 
for determining if a professional has met the credential requirements 
is in place, the industry can usually provide plenty of opportunity to 
receive the appropriate training or education needed to receive the 
credential.

Q2.  What is the supply and demand situation for individuals with cyber 
security expertise? What evidence do you have that such individuals are 
in demand, and what skill sets are most in demand?

A2. Anecdotal evidence suggests the will be plenty of opportunities for 
security professionals. Network security appears it will be the most 
sought after expertise in the near future.

Q3.  You indicated in your testimony that NSF has not been able to 
support innovative initiatives in information security education 
because of funding issues. Could you expand on this comment, and in 
particular, what kinds of innovative initiatives are not getting 
support?

A3. In discussing this issue with colleagues, they have indicated their 
understanding is NSF has not received its full funding and therefore is 
not able to support some proposals in the area of cyber security 
education. However, they did not provide specific information about 
their concerns.

Q4.  What has been your experience with the NSF Scholarships for 
Service program in terms of its ability to attract good students and 
its success in placing graduates in federal agencies? Do you have 
suggestions on ways to improve the scholarship program?

A4. Hopkins' experience with the SfS program has been good. Earlier we 
had some problems placing the students, but that seems to be much less 
of a problem at this point.
                   Answers to Post-Hearing Questions
Responses by Erich J. Spengler, Principal Investigator, Advanced 
        Technology Education Regional Center for the Advancement of 
        Systems Security and Information Assurance, Moraine Valley 
        Community College

Questions submitted by Representative Bart Gordon

Q1.  In general, what is the state of credentialing for cyber security 
professionals?

Q1a.  Are there certification standards in place or under development 
for cyber security education and training programs? Do formal 
mechanisms exist to develop such standards, and if so, please describe 
how they work?

A1a. The current state of credentialing encompasses an ongoing debate 
regarding the modeling of curriculum on industry certification. This 
debate focuses on the balance between certification standards and 
required skill sets. As academic institutions construct the basis for 
cyber security curriculum, several factors must be considered. These 
factors include the reflection of current industry demand identified by 
job skill proficiency and alignment to existing standards or 
certification through government or private entities. Therefore, one 
set of standards is not in place, but the debate for its development is 
indeed ongoing.
    Job skills proficiency and the mastering of industry knowledge 
often represent the framework used to construct cyber security programs 
from a practitioner outcome perspective. Cyber security skills are 
often identified through a thorough examination of current and future 
employer hiring needs. This process is often costly and must be ongoing 
to ensure consistency with current employer demands. Failure to 
accurately represent needs may result in programs that lack necessary 
components to adequately prepare cyber security professionals. To avoid 
these situations, many vendor and non-vendor organizations have 
established education/training programs and certification processes for 
benchmarking information security knowledge.
    I would caution the use of the term certification standard at this 
point, as this may convey that a single model of authority exists. In 
fact, there are currently many available models that can be used when 
creating cyber security education and training programs. The following 
represent only a few of the models that developers evaluate when 
establishing their curriculum framework:

        (1)  The International Information Systems Security 
        Certifications Consortium, Inc. (ISC) <SUP>2

        </SUP>     (ISC) <SUP>2</SUP> maintains what is referred to as 
        the Common Body of Knowledge for Information Security (CBK). 
        They administer certification examinations and require the 
        maintenance of post certification credentials through 
        continuing education. The CBK provides a common foundation for 
        the mastering of information security skills. The Certified 
        Information Systems Security Professional (CISSP) and System 
        Security Certified Practitioner (SSCP) are certification 
        examinations offered to candidates wishing to demonstrate 
        proficiency in areas of CBK knowledge.

        (2)  The National Security Agency/Central Security Service

             The Committee on National Security Systems (CNSS), chaired 
        by the Department of Defense, works with the National 
        Information Assurance Education and Training Program (NIETP) to 
        develop Information Assurance training standards. Under these 
        standards, the Information Assurance Courseware Evaluation 
        (IACE) program is used to ensure compliance with national 
        standards including:
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    CNSS and (ISC) <SUP>2</SUP> are examples of the many groups that 
are working to provide standards in information security education and 
training. Others include the SANS Institute Global Information 
Assurance Certification (GIAC), CompTIA Security+, the National 
Institute of Standards and Technology (NIST) Special Publication 800-
16. Additionally, vendors such as Microsoft, Cisco Systems Inc., and 
IBM develop product-specific and technology-specific security 
certifications. A growing challenge exists when determining which of 
the aforementioned certification standards should be incorporated as 
curriculum is mapped to certification.
    The National Security Agency (NSA) currently implements the 
Information Assurance Courseware Evaluation (IACE) Program. This 
program enables cyber security education and training programs at 
academic, government and commercial organizations and most recently 
community and two-year technical colleges, to map curriculum to 
national standards as set forth by the Committee on National Security 
Systems (CNSS).
    The National Science Foundation Advanced Technological Education 
(NSF ATE) program continues to play a major role in the identification 
and development of appropriate standards for education and training 
programs in cyber security related areas. The NSF ATE program also 
encourages collaboration between organizations tasked with the 
formulation and development of such standards. Over the next year, the 
NSF ATE Regional Center for Systems Security and Information Assurance 
(CSSIA) will partner with the National Workforce Center for Emerging 
Technology (NWCET) to enhance and review current skill standards. This 
group will also determine opportunities for alignment with other skill 
standards identified by (ISC) <SUP>2</SUP>, CNSS and others.

Q1b.  To what extent are academic credits for cyber security studies 
earned through programs at one institution transferable to another in 
furtherance of meeting degree requirements?

A1b. There is a clear weakness in the transferability of academic 
credentials from one institution to another. With a lack of common 
standards for program certification, schools construct programs 
reflecting different standards. Some programs may place an emphasis on 
a particular vendor's cyber security skill requirements while others 
may emphasize a more general non-vendor approach. This results in 
curriculum that is difficult to articulate on a course by course basis 
resulting in earned credits not transferring. When earned credits do 
not transfer, barriers emerge for students as they continue the pursuit 
of cyber security related careers. Institutions should be encouraged to 
emphasize a common set of standards or certification criteria in cyber 
security. Through this, academic education and training programs will 
substantially increase pathways toward articulation.
    As noted in my original testimony, community colleges play a 
critical role in the education and training of the Nation's workforce. 
The American Association of Community Colleges (AACC) also indicates 
that community and technical colleges enroll 44 percent of all U.S. 
undergraduate students, including 11.4 million credit and non-credit 
students. From these numbers, some 200,000 certificates and 450,000 
associate's degrees are granted each year. As cyber security programs 
emerge we must consider that the ability to meet degree requirements 
will be significantly reduced without emphasizing pathways, 
articulation agreements, and common standards. The NSF ATE program 
supports projects that provide guidance and leadership in the area of 
career pathways, articulation and standards. NSF ATE Centers continue 
to focus on these initiatives.

Q1c.  Is there a federal role in establishing national accreditation of 
cyber security education and training programs, and if so, how would 
you characterize it?

A1c. The Federal Government can play a role in the national 
accreditation of cyber security education programs. Most recently, 
inviting community and two-year technical colleges to submit requests 
under the National Security Agency (NSA) Information Assurance 
Courseware Evaluation (IACE) Program is a move in a positive direction. 
We must, however, recognize that the acceptance of other standards such 
as (ISC) <SUP>2</SUP>, SANS, CompTIA, and (NIST) SP 800-16 are becoming 
prevalent in their relationship to business and industry workplace 
skills and therefore will remain a vital component of the curriculum 
development process.

Q2.  What is the supply and demand situation for individuals with cyber 
security expertise? What evidence do you have that such individuals are 
in demand, and what skill sets are most in demand?

A2. As stated in previous testimony, the NSF ATE Regional Center for 
Systems Security and Information Assurance (CSSIA) and its partners 
conducted a survey of companies in five mid-western states to determine 
the job demand for IT security-related positions, desired skills, and 
preferred educational levels. The study was completed in the spring of 
2004 at a regional level and shows evidence that the demand for cyber 
security related skills is growing. At the completion of this survey, a 
total of 340 responses from companies throughout the Midwest were 
received. Respondents were divided into small (less than 100 
employees), medium (100-499) and large (500 or more) companies. An 
overwhelming 99 percent of respondents were concerned about Internet 
and computer security. Almost three-fourths of respondents said their 
company currently employed people in IT security positions and IT 
security positions were more likely to be part-time or shared positions 
(part-time security along with other IT duties) than dedicated (full-
time IT security). Table 1 below shows employment projections based on 
these 340 responses.
    Additional summarized responses are as follows:

        <bullet>  A total of 340 responses were received. Respondents 
        were divided into small (less than 100 employees), medium (100-
        499) and large (500 or more) companies.

        <bullet>  Almost all respondents were concerned about Internet 
        and computer security.

        <bullet>  Almost three-fourths of respondents said their 
        company currently employed people in IT security positions.

        <bullet>  IT security positions were more likely to be part-
        time or shared positions (part-time security along with other 
        IT duties) than dedicated (full-time IT security).

        <bullet>  Part-time security responsibilities can be or are 
        being added to most IT areas, including network administrator, 
        help desk, network engineer, applications developer and systems 
        analyst.

        <bullet>  Associate's degree graduates will be able to find IT 
        security positions, both at the entry-level and experienced 
        level, but Bachelor's degree graduates are preferred.

        <bullet>  The most popular types of security training provided 
        for IT staff were self-study and commercial vendor training 
        site. Somewhat more than two out of ten used community college 
        classes.

        <bullet>  Respondents indicated a total of 166 current openings 
        for IT security positions, and projected more openings in one 
        year (N = 237) and still more in three years (N = 422).

        <bullet>  One-fourth of respondents said their company would be 
        hiring new IT security staff within the next year. Slightly 
        more than half said there was shortage in the current supply of 
        qualified applicants for entry-level IT security positions. 
        Large companies were more likely to be concerned about Internet 
        and computer security, to have security positions, to have 
        dedicated (that is, full-time) security positions, and to 
        require a Bachelor's degree than medium and small companies. 
        More than half of respondents indicated some interest in 
        participating in IT security activities such as serving on an 
        advisory committee, acting as an internship site, providing 
        work-site tours, or other partnering activities.
                   Answers to Post-Hearing Questions
Responses by Sydney Rogers, Principal Investigator, Advanced Technology 
        Education Regional Center for Information Technology, Nashville 
        State Community College

Questions submitted by Representative Bart Gordon

Q1.  In general, what is the state of credentialing for cyber security 
professionals?

Q1a.  Are there certification standards in place or under development 
for cyber security education and training programs?

A1a. Certification standards for information security professionals 
have been developed by the National Security Agency (NSA) and the 
Committee on National Security Systems (CNSS). These standards have 
been incorporated into the Information Systems Security Professional 
certification offered by CISCO Systems. Many other organizations offer 
certification programs in information security. Although I do not know 
for sure, I assume they also incorporate the NSA and CNSS standards.

Q1b.  Do formal mechanisms exist to develop such standards, and if so, 
please describe how they work?

A1b. I am not qualified to answer this question; however, I assume the 
information is available from the NSA and the CNSS. I have included a 
URL that provides information about those who are working on this 
problem.
    http://www.nsa.gov/ia/academia/

Q1c.  To what extent are academic credits for cyber security studies 
earned though programs at one institution transferable to another in 
furtherance of meeting degree requirements?

A1c. In Tennessee, credits for cyber security studies will transfer 
from one higher education institution to another to the same degree 
that all other technical and courses in a specific discipline transfer. 
At Nashville State Community College, students may be awarded college 
credit toward a degree in computer networking for non-credit 
certification courses in cyber security and those credits will transfer 
to university programs that are of like disciplines. At this time in 
Tennessee, these credits are primarily for individual courses that are 
a part of degree programs in networking and telecommunications rather 
than for an entire degree in cyber security.

Q1d.  Is there a federal role in establishing national accreditation of 
cyber security education and training programs, and if so, how would 
you characterize it?

A1d. From my perspective at the community college, it seems that 
accreditation standards for cyber security programs are being 
established by the commercial community and training programs and is 
widely available. If there is a federal role, I think it would be to 
provide a coordination or leadership function to actually get these 
programs implemented and get students enrolled. For instance, 
information coming to the college must be sought out by the college and 
although my college does this to some degree, many colleges do not. 
Too, most experts agree that for the country to achieve the best 
outcome, all programs must include some elements of cyber security 
training. If this is to happen, a proactive national effort to 
disseminate information and materials about the subject to community 
colleges, universities, and State and local school systems will be 
necessary. A suggested approach might be to have an office within the 
Department of Homeland Security with a function to coordinate all the 
information being developed about cyber security through NSF, NSA, and 
other departments and proactively organize distribution of those 
resources and the need to implement the programs all across the country 
to colleges and local school systems.

Q2.  What is the supply and demand situation for individuals with cyber 
security expertise? What evidence do you have that such individuals are 
in demand, and what skill sets are most in demand?

A2. At my college, we have seen little demand for workers with specific 
expertise in cyber security. Instead, we have seen increased demand for 
network technicians and the job listings specify security knowledge as 
a part of the overall job description. Listings include knowledge and 
skills in firewall protection, knowledge of virus software, etc. In one 
case, an advisory committee for the health industry asked for all 
employees to have some understanding of cyber security and we have 
heard from other employers that they would like to see the curricula of 
all programs include elements of cyber security education to varying 
degrees. We have seen an increase in the number of requests for network 
technicians during the last quarter. From March to May of this year we 
had 16 requests for such technicians and from June through August, we 
had 24 requests for the same job title. Most of these employers assume 
that the network technicians have specific knowledge of cyber security.

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
